<html>
<title> - FIREFIGHTING AIRCRAFT</title>
<body><pre>[Senate Hearing 109-368]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-368

                         FIREFIGHTING AIRCRAFT

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                                   TO

REVIEW PROGRESS MADE ON THE DEVELOPMENT OF INTERIM AND LONG TERM PLANS 
  FOR USE OF FIRE RETARDANT AIRCRAFT IN FEDERAL WILDFIRE SUPPRESSION 
                               OPERATIONS

                               __________

                           FEBRUARY 15, 2006


                       Printed for the use of the
               Committee on Energy and Natural Resources

                                 _____

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        

27-215 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001





               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                 PETE V. DOMENICI, New Mexico, Chairman
LARRY E. CRAIG, Idaho                JEFF BINGAMAN, New Mexico
CRAIG THOMAS, Wyoming                DANIEL K. AKAKA, Hawaii
LAMAR ALEXANDER, Tennessee           BYRON L. DORGAN, North Dakota
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
RICHARD M. BURR, North Carolina,     TIM JOHNSON, South Dakota
MEL MARTINEZ, Florida                MARY L. LANDRIEU, Louisiana
JAMES M. TALENT, Missouri            DIANNE FEINSTEIN, California
CONRAD BURNS, Montana                MARIA CANTWELL, Washington
GEORGE ALLEN, Virginia               KEN SALAZAR, Colorado
GORDON SMITH, Oregon                 ROBERT MENENDEZ, New Jersey
JIM BUNNING, Kentucky

                       Alex Flint, Staff Director
                   Judith K. Pensabene, Chief Counsel
               Robert M. Simon, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                    LARRY E. CRAIG, Idaho, Chairman
                CONRAD R. BURNS, Montana, Vice Chairman

CRAIG THOMAS, Wyoming                RON WYDEN, Oregon
JAMES M. TALENT, Missouri            DANIEL K. AKAKA, Hawaii
GORDON SMITH, Oregon                 BYRON L. DORGAN, North Dakota
LAMAR ALEXANDER, Tennessee           TIM JOHNSON, South Dakota
LISA MURKOWSKI, Alaska               MARY L. LANDRIEU, Louisiana
GEORGE ALLEN, Virginia               DIANNE FEINSTEIN, California
                                     MARIA CANTWELL, Washington

   Pete V. Domenici and Jeff Bingaman are Ex Officio Members of the 
                              Subcommittee

                Frank Gladics, Professional Staff Member
                    Scott Miller, Democratic Counsel



                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Burns, Hon. Conrad R., U.S. Senator from Montana.................     2
Craig, Hon. Larry E., U.S. Senator from Idaho....................     1
Hall, James, Hall & Associates, LLC..............................    20
Hatfield, Nina Rose, Deputy Assistant Secretary, Policy, 
  Management and Budget, Department of the Interior..............     7
Hull, James B., President, National Association of State 
  Foresters......................................................    27
Murkowski, Hon. Lisa, U.S. Senator from Alaska...................     2
Rey, Mark, Under Secretary for Natural Resources and the 
  Environment, Department of Agriculture.........................     5
Salazar, Hon. Ken, U.S. Senator from Colorado....................     4

                                APPENDIX

Responses to additional questions................................    33

 
                         FIREFIGHTING AIRCRAFT

                              ----------                              


                      WEDNESDAY, FEBRUARY 15, 2006

                               U.S. Senate,
           Subcommittee on Public Land and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met at 2:30 p.m. in room SD-366, Dirksen 
Senate Office Building, Hon. Larry E. Craig presiding.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Senator Craig. Good afternoon, everyone, and welcome to 
today's Public Lands and Forests Subcommittee hearing. Today we 
will take testimony from the Department of Agriculture's Under 
Secretary of Natural Resources and the Environment, Mark Rey, 
and the Department of the Interior's Deputy Assistant Secretary 
of Policy Management and Budget, Nina Rose Hatfield. Tom 
Harbour, I understand, is a backup resource for the U.S. Forest 
Service.
    I also want to welcome back to our hearing room Mr. Jim 
Hall of Hall & Associates and Mr. Jim Hull, the Texas State 
Forester. They provided excellent testimony on the Blue Ribbon 
Panel on Federal Aerial Firefighting Assisting Safety and 
Effectiveness Report in our 2003 meeting and I expect that same 
type of testimony today. Mr. Hull, if you also want to give us 
a quick update on your experiences in the recent fires in both 
Texas and Oklahoma this winter, I think the committee and the 
record would appreciate that.
    I've called this hearing for four reasons. First, the Blue 
Ribbon Panel called for the agencies to develop a plan to 
replace retardant aircraft with non-military aircraft.
    In 2004, Congress directed the agency to develop a long-
term strategy and report back to Congress by March 2005. What 
do the agencies plan on doing to resolve this issue? What will 
the cost be to move away from the old paradigm by using old 
military aircraft to do whatever it is the agencies plan and 
are recommending?
    Next, the Forest Service has acquired three Navy P-3 Orions 
that it plans to convert into retardant aircraft and contract 
with a company or companies to operate and maintain these 
aircraft. It would seem to me that this acquisition might tell 
us what the long-term strategy is, but we need to discuss the 
costs and the implication of this strategy.
    Third, the blue ribbon report included a number of other 
important recommendations and I will explore some of them in my 
questions with our witnesses this afternoon.
    Last, I see that the BLM is moving toward a higher number 
of exclusive use contracts for its single-engine retardant 
aircraft. Given the uproar that engulfed the Forest Service 
last year regarding helicopter contracts, I want to know that 
the BLM has learned from the Forest Service's tantrum of last 
year. Additionally, you need to help me understand the shift to 
larger single-engine retardant aircraft and what that means.
    Mr. Hall will have to leave us earlier to make his flight. 
Thus I may move him forward in the hearing in relation to 
questions. We will see how we're progressing and I'll let, of 
course, him know, but I don't think that we're going to extend 
beyond his time limit.
    Finally, I know that many of the members may want to take 
this opportunity to ask Under Secretary Rey about the 
administration's proposal to sell Forest Service lands in order 
to finance payments to counties. So far, those Senators have 
not showed up. We'll see how that progresses. Mark, I would 
suggest one might need to be prepared to respond to those kinds 
of questions.
    Mr. Rey and the Chief of the Forest Service are scheduled 
for a hearing on February 28 at 10 a.m. here on budget issues. 
That would be the more appropriate time for us to discuss that. 
I will maintain a 5-minute clock for testimony and questions of 
the committee. We'll make both your written and oral 
testimonies a part of our record, so I urge you to resist 
referring to your full testimony, giving us the opportunity to 
move to the necessary and appropriate questions.
    Again, welcome before the committee. And before I turn to 
Nina and Mark, let me turn to Senator Lisa Murkowski.
    Senator Murkowski.
    [The prepared statement of Senator Burns follows:]
 Prepared Statement of Hon. Conrad R. Burns, U.S. Senator From Montana
    Chairman Craig, thank you for calling this hearing to discuss 
wildland aviation fire safety and thanks to our witnesses for traveling 
to be here today.
    Firefighting aircraft play an integral role in wildland fire 
management. In Montana, we understand the dangers associated with 
catastrophic wildfires and firefighting. The crews of these planes take 
exceptional risk and perform a great service to our state. Since the 
Blue Ribbon report was published in 2002, this subcommittee has met 
several times to track the Forest Service's progress in implementing 
the findings of the report.
    I am also concerned with the rising cost of aerial operations. In 
recent years the Forest Service has expended as little as $155 million 
dollars in FY 2004 and as much as $255 million in FY 2002 for all 
aviation activities. It is estimated the cost could be in excess of 
$280 million in a bad fire season. With rising costs, it is important 
the Forest Service has a strategy plan in place for procuring and 
managing its aviation assets in the future. Congress has asked for this 
plan and is still waiting.
    I am also interested to hear more about the Forest Service's plan 
for the recently acquired Lockheed P-3 Orion Aircraft. I am primarily 
concerned about whether or not the government will face liability in 
the event of an accident.
    Thank you again for joining us here today. I look forward to your 
testimony.

        STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I appreciate 
the opportunity to speak this afternoon. Welcome. It's always 
nice to see and talk about issues that are important to us up 
north, and as you know, things have been warm up there the past 
couple of summers. But, Senator Craig, I want to thank you, as 
the chairman of the subcommittee, for holding the hearing so 
early this year. What has been happening up north is that it 
appears that our fire season seems to be coming just a little 
bit earlier year after year. So it is appropriate for the 
subcommittee to conduct the oversight hearings while we can 
still influence the Federal fire managers for the upcoming 
season.
    Now, we always seem to refer to the 2004 fire season in 
Alaska as the toughest fire season on record. We lost about 
seven million acres burned up there, mostly in the interior, 
but really last year wasn't much better. We lost 4.1 million 
acres. It was the third busiest fire season on record and it 
was also very significant in that fire managers were battling 
two very significant fires in May. We never used to think about 
May as being fire season in Alaska, but we saw them in Kenai 
and the Northway fires.
    While the number of acres burned in 2005 was less than in 
2004, what we saw from the smoke and Alaskans suffering from 
the smoke, I felt it was increased. I spent a little bit of 
time in the interior in both July and in August doing my other 
duties--that of being a soccer mom--and had the misfortune of 
being in conditions where the soccer tournaments were canceled, 
where I had people coming up to me and saying, yes, we 
appreciate that the job is all about protecting property, 
protecting life, but the quality of life is such that we can't 
go outside. We're canceling the sporting events, they're 
advising seniors and young children to stay indoors if you've 
got any kind of respiratory issues. It was an issue where I had 
people coming to me saying, I live here in the interior, suffer 
through the long, cold winters because we know during the 
summertime we can go out and enjoy the sunshine, enjoy the heat 
of the interior, and people couldn't go outside because of the 
air quality issues.
    So, really, we still see the lack of availability of the 
heavy airtankers during the fire season and that's irritating 
people as much as the smoke. They're saying, where are the 
tankers, what's going on? Now, we have contracted with the 
heavy airtankers from Canada for the past several seasons, but 
there remains this arguing, quibbling with the Federal 
Government about where the tankers can be used.
    And we've had great discussion in this committee about the 
interagency operations. As we know, the firefighting in Alaska 
is uniformly interagency. The State has the lead in south-
central, the Federal Government has the lead in the interior, 
but the resources are used Statewide. We believe, the State 
firmly believes, that the tankers are safe to fly on fires 
anywhere in the State and that the rigor of the Canadian 
regulation assures that they're safe.
    We've brought this issue up now for several years, 3 years 
running. We still don't have an entirely straight answer. Last 
year, Mr. Rey, you testified the problem was resolved, but then 
we got a letter from Lynn Scarlett saying that, in fact, it 
wasn't fixed. So I do look forward to the agency's plans for 
the 2006 fire season. We certainly hope that a long-term 
solution to the tanker availability problem is going to be 
resolved and we see that problem disappear. So I appreciate 
your testimony here this afternoon. And I appreciate the 
opportunity, Mr. Chair, to make a few comments.
    Senator Craig. Senator, thank you very much. Now let us 
turn to our colleague, Ken Salazar, Senator Salazar of 
Colorado.

          STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR 
                         FROM COLORADO

    Senator Salazar. Thank you very much, Chairman Craig, and 
thank you for your leadership, not only on this subcommittee, 
but also on this issue. It's good to know that you're out front 
before the heat of the fire season starts making sure that 
we're ready to do what we need to do.
    Senator Craig. Well, looking at that map, you're kind of in 
it feet first, I guess. Is that how we say it?
    Senator Salazar. I was trying to calculate the percentage. 
It looks like about 66 percent, about two-thirds of us, are 
right there in that danger zone.
    Senator Craig. Okay.
    Senator Salazar. So I am concerned. And I very much 
appreciate you holding the hearing. I was noticing--let me see, 
how much of Idaho is in there? Well, not very much. Thank you, 
sir, for holding this hearing. I know Alaska's right in there, 
too, so I think there are a number of our States that are in 
there. I think it's an important hearing because, even though 
we now have 10 feet of snow in many of our mountain ranges, we 
know that that will all disappear and we'll be in the fire 
season again sooner than we expect.
    For me, from a perspective of Colorado, I witnessed in 1994 
a Storm King tragedy which resulted in 14 men and women dying 
on Storm King Mountain near Glenwood Springs. I also, during 
the time I was attorney general, participated in some of the 
efforts concerning two huge fires in Colorado. One, which was 
the Hayman fire, was started by one of the Federal employees 
and burned 138,000 acres. Also in that tragedy, there were four 
young men and women who died on their way to fighting that 
fire. And, finally, in 2002, we lost two crew members when a 
helicopter and a tanker crashed in the Big Elk fire near Estes 
Park.
    And so it's an issue of great concern to me and I look 
forward to hearing from the agency what plans we have with 
respect to these slurry bombers in the year ahead.
    Thank you very much, Mr. Chairman. And I have some 
questions that I would ask, if I could submit them for the 
record, and then if the agency could respond to those 
questions, Mr. Chairman.
    Senator Craig. Certainly questions will become a part of 
the record for their response. We appreciate that.
    Senator Salazar. Thank you.
    Senator Craig. Now let us proceed with our witnesses. 
Aerial fire assault has become a very major part of your fire 
budgets and the quality of the aircraft is in question and, of 
course, we've been through several iterations of this now, so 
let us proceed. Let me turn first to Mark Rey, Under Secretary 
for Natural Resources and the Environment, Department of 
Agriculture. Again, Mark, welcome before the committee. Please 
proceed.

 STATEMENT OF MARK REY, UNDER SECRETARY FOR NATURAL RESOURCES 
         AND THE ENVIRONMENT, DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Mr. Chairman. Thank you for the 
opportunity to talk about our Department's aviation programs 
today. We'll be submitting a single statement and we'll both 
summarize elements of it. In the statements, we'll discuss our 
aviation resources, responses to reports and recommendations to 
improve the fire aviation program, progress on our long-term 
aviation plans, and the outlook for the upcoming fire season.
    The fire aviation program has undergone significant changes 
since the spring of 2004, when contracts for large airtankers 
were terminated in the wake of the NTSB report addressing 
airworthiness issues. In 2004 and 2005, we made greater use of 
small single-engine airtankers and both large and medium 
helicopters. This strategy, combined with the certification and 
return to service of 16 large tankers, has served us well. The 
mix of aircraft, including large airtankers, SEATs, 
helicopters, and other aircraft, provided aerial support to our 
firefighters in achieving an initial attack success rate of 
98.2 percent in 2003, 99.1 percent in 2004, and 98.5 percent in 
2005. So our 2 years of experience in 2004 and 2005 with our 
modified aviation fleet has proven successful results. We 
continue to have the firefighter's equipment and aircraft 
necessary to achieve a high rate of success in suppressing 
fires on initial attack, and we expect that will continue 
during the 2006 fire season.
    As I indicated, in May 2004, we terminated the contracts 
for 33 large airtankers, based on the recommendation of the 
NTSB regarding the airworthiness of these aircraft. The NTSB's 
recommendation were the result of investigations of three large 
airtanker crashes. The report noted the need to have 
maintenance and investigation--maintenance and inspection 
programs for all firefighting aircraft based on their 
operational service life in the firefighting environment. It 
was the opinion of NTSB that the FAA, the Forest Service and 
DOI all have a role in ensuring airworthiness for aircraft use 
in firefighting operations, but that the primary role for 
assuring the airworthiness of large airtankers rests with the 
Forest Service.
    At the time of the NTSB report, mechanisms to assure 
airworthiness of firefighting aircraft were not fully 
developed. Consequently, the contracts for 33 large airtankers 
were terminated. Two subsequent actions were immediately taken. 
First, we developed a strategy of utilizing SEATs and 
helicopters to provide additional aerial support, and second, 
we began a lengthy process to address the airworthiness of the 
large airtankers. Following that work, a determination on the 
airworthiness of two models of large tankers was made and these 
aircraft were turned into service.
    We have been unsuccessful in assessing the operational 
service life for 14 Douglas DC-4, 6, and 7 aircraft. Without 
confidence in a method of determining the structural strength 
and fatigue life of the Douglas aircraft, neither the Forest 
Service, nor any other firefighting organization, can be 
reasonably assured of their safety. Therefore, consistent with 
the manufacturer's advice--that would be the Boeing 
Corporation--the DC-7 that was flown experimentally in 2004 and 
2005 will not be federally contracted for 2006.
    In January 2006, three additional Lockheed P-3B aircraft 
were made available from the U.S. Navy. Ownership of these 
aircraft has been transferred to the Forest Service. The Forest 
Service, on behalf of the firefighting agencies, will pursue 
competitive bids to install tanks and operate the aircraft. 
Conversion inspections of these aircraft could take several 
months. They are expected to be available for the 2007 fire 
season. In response to your question, this is not part of our 
long-term strategy, but it's an effort in the interim to add 
some additional flexibility to our airtanker fleet.
    During the 2006 fire season, we expect to have available 16 
large airtankers, subject to testing and inspection, and four 
military C-130 aircraft equipped with modular airborne 
firefighting systems. An additional four of these C-130 
aircraft will be available when maintenance and inspections are 
completed in the early summer and they will thereafter be added 
to the firefighting fleet.
    Along with the heavy tankers and the SEATs, additional 
large, type I helicopters and medium helicopters have allowed 
us to fight wildland fires even with the reduction in the 
number of large airtankers. While the large, fixed-wing 
airtankers have the ability to fly faster and go longer 
distances to deliver retardant, a type I helicopter with a 
retardant supply can exceed fixed-wing airtankers in capacity 
and effectiveness.
    For the 2006 fire season, the Forest Service and DOI plan 
to have available 15 exclusive-use and 94 call-when-needed 
large helitankers and helicopters, as well as 39 exclusive-use 
and 110 call-when-needed medium helicopters. Seventy-three 
smaller, type III, exclusive-use helicopters are stationed 
around the country for local use in areas of high fire 
potential. There are also a large number of call-when-needed, 
type III helicopters available.
    I'll take just a second to respond to the clarification 
that Senator Murkowski requested about the availability of 
tankers in Alaska. First and foremost, all of our large 
airtankers and all of--virtually all of our aviation assets are 
national assets and if they are needed in Alaska, they will be 
directed there, as they're requested by incident commanders in 
the State.
    Additionally, the State of Alaska also flies aircraft. At 
one time last year, we thought they were going to be flying the 
CL-215's, which are certificated for air safety and would not 
have been restricted in any fashion. Later, the State changed 
its mind and contracted with some DC-6's. As I said earlier, we 
have not been able to assure the operational service life of 
the DC-6's, so those won't be flown in Federal incidences. As 
long as they're flown under State control, however, they would 
not be restricted for use in Alaska.
    With that, I turn the microphone over to Ms. Hatfield for 
the balance of our statement.
    Ms. Hatfield. Thank you, Mark.
    Senator Craig. Please proceed.

 STATEMENT OF NINA ROSE HATFIELD, DEPUTY ASSISTANT SECRETARY, 
    POLICY MANAGEMENT AND BUDGET, DEPARTMENT OF THE INTERIOR

    Ms. Hatfield. Mr. Chairman and members of the committee, 
thank you for this opportunity to meet with you today to 
discuss the Department of Agriculture's Forest Service and the 
Department of the Interior's Fire Aviation Program. As Mr. Rey 
stated, the fire aviation program is an important and multi-
faceted component of our overall firefighting strategy and is 
used in tandem and in support of our other firefighting 
operations.
    Today, I'd like to address our refinement in the use of 
single-engine airtankers, or SEATs, in our firefighting 
efforts, our response to the report of the blue ribbon panel, 
and the 2006 outlook for the fire season. In 2006, the BLM will 
implement a refined aviation program that will achieve greater 
operational efficiencies by focusing on faster, higher-capacity 
aircraft and enhancing collaboration and cooperation to 
position these aircraft where the need is the greatest.
    The overall number of aircraft will essentially remain 
unchanged from last year, but they'll be managed in a more 
efficient manner. By using faster, higher-capacity aircraft and 
extending the lengths of the exclusive use contracts, the BLM 
will achieve the same or greater capacity than in 2005. For 
example, two 800-gallon SEATs would replace three 500-gallon 
SEATs in this new strategy.
    As a result, all the geographic areas will continue to have 
access, as they have in previous years, to more aircraft when 
the need arises. BLM is also initiating a program to collect 
flight data encountered in firefighting operations with the 
long-term goal to gather and analyze data regarding the 
structural conditions and continuing airworthiness in the fire 
environment for each aircraft's particular mission, whether 
it's a smokejumper aircraft, helicopters, aerial supervision, 
or other types of aircraft and missions.
    We referred earlier today to the NTSB study, which the 
Forest Service and DOI co-sponsored, and to a blue ribbon panel 
to review all aspects of the aviation program. Both Departments 
appreciate the efforts of Mr. Hall and Mr. Hull, who are co-
chairs of the blue ribbon panel.
    As a result of the NTSB and blue ribbon panel reports, the 
Departments have a number of efforts underway to anticipate and 
address the long-term aviation needs of the fire community and 
for the continued protection of lives, property, and resources. 
The feasibility of aircraft, such as the S-3 Viking and other 
aircraft, for the use of airtankers is being studied. In 
addition, both the Forest Service and DOI are collecting and 
analyzing flight data that will help us in improving aviation's 
safety for the future. This data will also provide a foundation 
for the discussion of purpose-built airtankers, or airtankers 
specifically designed and built for missions and operations in 
the fire environment.
    In response to the blue ribbon panel findings, both DOI and 
the Forest Service have modified its contracting procedures for 
aircraft to focus on obtaining the best value without 
compromising safety considerations.
    In addition, both DOI and the Forest Service have 
progressed in the implementation of training, including online 
training for our SEAT contract pilots. Prior to the 2006 
season, the Forest Service will train nearly 300 agency and 
contract pilots through its sponsored crew resource management 
courses and the National Aerial Firefighter Academy.
    An interagency work group comprised of the agency fire 
directors and the National Association of State Foresters is 
identifying unified and consistent mission standards, as well 
as assessing the long-term needs of the aviation program. 
Recognizing the evolution and changing needs of the aviation 
program, this group will address the next 10 to 15 years of 
interagency fire aviation needs.
    The first phase of this group's work, which provides a 
broad overview of the entire aviation program, including large 
airtankers, is currently underway. Phase two will address 
congressional direction for a strategic plan and will contain 
more specific elements, such as the issues surrounding purpose-
built airtankers. Phase three of this effort will be the 
creation of an implementation plan that will be developed 
shortly after the completion and approval of phase two. We 
anticipate initial implementation to occur in fiscal year 2007, 
with full implementation phased in over a number of years.
    Now, as we turn our attention to the outlook for the 2006 
fire season, as you have already noted, this map demonstrates 
that our 2006 fire season is shaping up to be another 
challenging year. The areas in maroon represent those areas in 
which we believe there's an above normal potential for fire 
activity. And then in the Northeast area, you will see that the 
predictive services indicate that we think we'll have less than 
a normal fire year. So this certainly does reflect the drought 
conditions that continue across much of the Southwest and the 
fire activity that is expected to begin early and remain above 
normal through June and into July.
    However, Alaska, as you can see, especially in the Kenai 
Peninsula, continues to have areas of concern where we expect 
to have higher than normal fire potential. We do expect to have 
firefighting resources, firefighters, equipment, and aircraft 
that are comparable to those that were available in 2005. If 
local areas experience severe fire risks, we will continue to 
increase firefighting ability by staging or deploying our 
firefighters and equipment as it is needed. Each aerial 
resource, whether fixed-wing or helicopter, fields a key role 
in that multifaceted interagency fire suppression strategy.
    We have shown that we have the capability for adjusting for 
the short-term as we complete our long-range plan using the 
kind of information that is behind the construction of this 
map. We certainly are keenly aware of the challenges that we 
face regarding fire aviation and aerial support of our 
firefighters on the ground in protecting lives, property, and 
resources, and we are facing these challenges head-on.
    We appreciate your continued support and look forward to 
working with you as we move forward through this process toward 
an ever more modern and efficient fire and aviation program for 
the future. We'd like to thank you again for the opportunity to 
discuss these aviation issues with you today and we'd be happy 
to answer your questions. Thank you.
    [The prepared joint statement of Mr. Rey and Ms. Hatfield 
follows:]
 Prepared Statement of Nina Rose Hatfield, Deputy Assistant Secretary, 
  Policy, Management and Budget, Department of the Interior, and Mark 
Rey, Under Secretary, Natural Resources and Environment, Department of 
                              Agriculture
                              introduction
    Mr. Chairman and members of the Committee, thank you for the 
opportunity to meet with you today to discuss the Department of 
Agriculture Forest Service and the Department of the Interior (DOI) 
fire aviation program. Since the two Departments work closely together 
in fire management, we are providing a joint statement. The fire 
aviation program is an important and multifaceted component of our 
overall firefighting strategy, and is used in tandem and in support of 
other firefighting operations. In our testimony today, we will discuss 
our aviation resources, responses to reports and recommendations to 
improve the fire aviation program, progress on our long-term aviation 
plans, and the outlook for the upcoming fire season.
                               background
    The fire aviation program has undergone significant changes since 
the spring of 2004 when contracts for large airtankers were terminated 
in the wake of the National Transportation Safety Board (NTSB) report 
addressing airworthiness issues. In 2004 and 2005, we made greater use 
of smaller Single Engine Air Tankers (SEATs) and both large and medium 
helicopters. This strategy, combined with the certification and return 
to service of 16 large air tankers has served us well. The mix of 
aircraft, including large air tankers, SEATs, helicopters, and other 
aircraft provided aerial support to our firefighters in achieving an 
initial attack success rate of 98.2 percent in 2003, 99.1 percent in 
2004, and 98.5 percent in 2005.
    The increasing accuracy of interagency predictive services 
capabilities assists in the refinement of fire aviation management. 
Advances in technology, data-gathering, and data analysis, combined 
with increased collaboration between interagency meteorologists and 
fire behavior and fuels specialists, provide greater accuracy in 
predicting the potential for, and severity of, fire activity. In turn, 
this allows managers to move and place aircraft where the needs are 
greatest and aviation resources can be most effective.
    The Forest Service and DOI continue to have the firefighters, 
equipment, and aircraft necessary to achieve a high rate of success in 
suppressing fires on initial attack. We have increased our fleet of 
firefighting aircraft to assist ground firefighters, particularly 
during extended attack. As you know, during any year, the vast majority 
of wildland fires--numbering in the thousands--are suppressed without 
the benefit of air support. If a fire continues to grow and locally 
available resources are inadequate, fire managers request additional 
resources, including aviation support. Aviation assets are managed 
through the National Multiagency Coordination Group and prioritized for 
prepositioning, initial attack, and extended attack.
    In calendar year 2005, more than 66,000 fires burned 8.7 million 
acres of Federal, State and private lands. In calendar year 2005, 
Federal suppression costs totaled $966 million. Wildland fire use--by 
which fire was used to achieve resource management objectives in 
predefined geographic areas--accounted for an additional 489,000 acres.
                           aviation resources
    Large Airtankers--Large airtankers are only one of the many tools 
we use to suppress wildland fires. The primary role of large airtankers 
is to rapidly deliver a large amount of retardant in the initial attack 
of a wildfire. In May 2004, the Forest Service and Bureau of Land 
Management (BLM) terminated the contracts for 33 large airtankers based 
on the recommendations of the NTSB regarding the airworthiness of these 
firefighting aircraft; the NTSB recommendations were the result of 
investigations of three large airtanker crashes. The report noted the 
need to have maintenance and inspection programs for all firefighting 
aircraft based on their operational service life in the firefighting 
environment. It was the opinion of NTSB that the Federal Aviation 
Administration, the Forest Service, and DOI all have a role in ensuring 
airworthiness for aircraft used in firefighting operations, but that 
the primary role for assuring the airworthiness of large air tankers 
rests with the Forest Service.
    At the time of the NTSB report, the mechanisms to ensure 
airworthiness of firefighting aircraft were not fully developed. 
Consequently, the contracts for 33 large airtankers were terminated. 
Two subsequent actions were immediately taken: first, the Departments 
developed a strategy of utilizing SEATs and additional large and medium 
helicopters to provide aerial support; this reconfigured fleet 
performed successfully albeit at a higher per hour cost during the 2004 
fire season. Second, a process to address airworthiness was developed 
by the Forest Service through contracting with aviation technical 
experts.
    Following the work of the aviation technical contractors, a 
determination on the airworthiness of two models of large airtankers 
was made and these aircraft returned to service. The Forest Service 
spent considerable time and effort with the owners and operators of all 
large airtankers to respond to the NTSB findings. We have been 
unsuccessful in assessing the operational service life for fourteen 
Douglas DC-4, 6, and 7 aircraft. Without confidence in a method of 
determining the structural strength and fatigue life of the Douglas 
aircraft, neither the Forest Service nor other Federal firefighting 
organizations can be reasonably assured of their safety. Therefore, 
consistent with the manufacturer's (Boeing Corporation) advice, the DC-
7 that was flown experimentally in 2004 and 2005 will not be Federally-
contracted during 2006.
    In January 2006, three Lockheed P3B large aircraft became available 
from the U.S. Navy. Ownership of these aircraft has been transferred to 
the Forest Service. The Forest Service, on behalf of the firefighting 
agencies, will pursue competitive bids to install tanks and operate the 
aircraft. Conversion and inspections of these aircraft could take a 
year. They are expected to be available for the 2007 fire season.
    Airworthiness efforts related to airtankers and other aircraft are 
continuing. The Forest Service plans to have all airtankers and agency 
owned aircraft instrumented with Operational Loads Monitoring Systems 
by the end of 2006. The Forest Service's Operational Loads Monitoring 
Program collected, converted, and disseminated over 800 hours of flight 
loads data and expects that figure will quadruple for 2006. These data 
will be analyzed by aviation technical experts to identify aerial 
firefighting environment. The long-term goal is to gather and analyze 
data regarding operational loads and continue to use that data to 
enhance the continuing airworthiness of aircraft used in aerial 
firefighting. The data collected and its analysis were instrumental in 
the reintroduction of the Lockheed P2V aircraft and have helped 
validate its use for the next 5-10 years. All of the airtankers have 
been configured with traffic collision avoidance systems.
    During the 2006 fire season, we expect to have available 16 large 
airtankers, subject to testing and inspection, and 4 military C-130 
aircraft equipped with modular airborne firefighting systems (MAFFS). 
An additional 4 MAFFS will be available when maintenance and 
inspections are complete in the early summer.
    Helicopters--Along with SEATs, additional large (Type I) 
helicopters and medium helicopters have allowed us to fight wildland 
fires even with the reduction in the number of large airtankers. While 
the large fixed-wing airtankers have the ability to fly faster and go 
longer distances to deliver retardant, a Type I helicopter, with a 
close suppressant/retardant supply, can exceed a fixed wing airtanker 
in capacity and effectiveness. This provides improved operational 
effectiveness through quick turnarounds, precision drops, and increased 
gallons delivered.
    For the 2006 fire season, the Forest Service and DOI plan to have 
available 15 exclusive use and 94 call-when-needed large helitankers 
and helicopters, as well as 39 exclusive use and 110 call-when-needed 
medium helicopters. Seventy three smaller (Type III) exclusive use 
helicopters are stationed around the country for local use in areas of 
high fire potential. There are also a large number of call-when-needed 
Type III helicopters available.
    Single Engine Airtankers--For the 2006 fire season, the BLM, which 
manages the vast majority of the DOI fire aviation program, will 
implement a refined aviation program that will achieve greater 
operational efficiencies by focusing on faster, higher-capacity 
aircraft, and by enhancing collaboration and cooperation to position 
these aircraft where the need is greatest. The overall number of 
aircraft will essentially remain unchanged from last year, but they 
will be managed in a more efficient manner.
    Vendors are gradually transitioning from piston aircraft to the 
faster turbine aircraft which have a higher capacity, are more 
reliable, and perform better at higher altitudes. By using faster, 
higher-capacity aircraft and extending the lengths of the exclusive-use 
contracts, the BLM will achieve the same or greater capacity than in 
2005. For example, two 800-gallon SEATs would replace three 500-gallon 
SEATs. Additionally, these aircraft will be contracted at the national 
level, allowing for improved cooperation at all organizational levels 
and for greater flexibility in positioning and utilizing the aircraft 
where they are most needed. The net result is that all geographic areas 
will have greater access than in previous years to more aircraft when 
the need arises.
    Additionally, in a separate effort the BLM has initiated a program 
to collect flight data encountered in firefighting operations. This 
program, which stems from the findings of the Blue Ribbon Commission 
(discussed below in more detail), is in the process of evaluating each 
type of aircraft and its use in the Department's fleet. BLM 
instrumented two aircraft in 2005 to monitor structural conditions and 
gather data regarding operations in the fire environment. A third 
aircraft will be equipped in 2006. The long-term goal is to gather and 
analyze data regarding structural conditions and continuing 
airworthiness in the fire environment for each aircraft's particular 
mission, whether it is smokejumper aircraft, helicopters, aerial 
supervision, or other types of aircraft and missions.
                       working toward the future
    In 2002, prior to the NTSB study, the Forest Service and DOI co-
sponsored a Blue Ribbon Panel to review all aspects of the aviation 
program. Both Departments appreciate the efforts of Mr. Hall and Mr. 
Hull who were Co-Chairs of the Blue Ribbon Panel. As a result of the 
NTSB and Blue Ribbon Panel reports, the Departments have a number of 
efforts underway to anticipate and address the long-term aviation needs 
of the fire community, and for the continued protection of lives, 
property, and resources. The feasibility of aircraft such as the S3 
Viking and other aircraft for use as airtankers is being studied.
    Large airtankers, helicopters, and SEATS have specific missions in 
responding to wildland fires, ranging from the delivery of crews and 
supplies, providing a management platform, to dropping water and 
retardants. The collection and analysis of flight data will aid us in 
improving aviation safety for the future. It will also provide a 
foundation for discussions about ``purpose-built'' air tankers, or air 
tankers specifically designed and built for missions and operations in 
the fire environment. The data we are gathering will be analyzed by 
independent aviation experts, either original manufacturers or other 
experts. We will limit our aircraft to those having the structural 
strength to operate safely in the fire environment.
    In response to the Blue Ribbon Panel findings, both DOI and the 
Forest Service modified its aircraft contracting process to focus on 
obtaining the best value without compromising safety considerations. In 
addition, DOI and the Forest Service have progressed in the 
implementation of training, including on-line training for SEAT 
contract pilots. Additional training modules for helicopter pilots, air 
tactical supervision pilots, and others are scheduled to be completed 
and available in the future. Prior to the 2006 fire season the Forest 
Service will train nearly 300 agency and contract pilots through its 
sponsored crew resource management courses and the National Aerial 
Firefighter Academy.
    An interagency work group chartered by the National Fire and 
Aviation Executive Board, comprised of the Agency Fire Directors and 
the National Association of State Foresters, is identifying unified and 
consistent mission standards, as well as assessing the long-term needs 
of the aviation program. Recognizing the evolution and changing needs 
of the aviation program, the National Fire and Aviation Executive Board 
chartered a group to address the next 10 to 15 years of interagency 
fire aviation needs. The first phase of this group's work, which 
provides a broad overview of the entire aviation program, including 
large air tankers, is currently underway.
    Phase 2 of the group's work will address the Congress's direction 
for a strategic plan and will contain more specific elements such as 
the issues surrounding ``purpose-built'' air tankers; the anticipated 
numbers and types of airtankers that will be needed; the infrastructure 
that will be required to support a future air tanker fleet; 
acquisition, infrastructure, maintenances, and other associated costs; 
and acquisition and management models.
    Phase 3 of this effort will be the creation of an implementation 
plan that will be developed shortly after completion and approval of 
Phase 2. We anticipate initial implementation to occur in fiscal year 
2007, with full implementation phased in over a number of years.
                    outlook for the 2006 fire season
    The 2006 fire season is shaping up to be another challenging year. 
Drought conditions continue across much of the southwest and fire 
activity is expected to begin early and remain above normal through 
June into July. Below normal fire potential exists in the northeast 
based on a wet winter. In Alaska, the Kenai Peninsula continues to be 
an area of concern with higher than normal fire potential. We expect to 
have firefighting resources--firefighters, equipment, and aircraft--
comparable to those available in 2005. If local areas experience severe 
fire risk, we will increase firefighting ability by staging or 
deploying our firefighters and equipment as needed.
                                summary
    In conclusion, we would again like to thank you for the opportunity 
to discuss these aviation issues with you today. Each aerial resource, 
whether fixed wing or helicopter, fills a key role in the multifaceted 
interagency fire suppression strategy. We have shown that we have the 
capability of adjusting for the short-term as we complete our long-
range plans. We are keenly aware of the challenges we face regarding 
fire aviation and aerial support of our firefighters on the ground in 
protecting lives, property, and resources. We are facing these 
challenges head-on and with determination, and we are pursuing every 
possible avenue to maintain and improve the safety, efficiency, and 
effectiveness we've all come to expect from the fire aviation 
community. We appreciate your continued support and look forward to 
working with you as we move through this process toward an ever more 
modern and efficient fire and aviation program for the future. I would 
be happy to answer any questions you may have.

    Senator Craig. Secretary Hatfield, thank you very much. 
Both Secretary Rey and Secretary Hatfield, thank you. We've 
been joined by two more of our colleagues, Senator Conrad Burns 
of Montana and Senator John Kyl of Arizona. If you two are not 
on a hard timeline, we'll move right into questions and allow 
you to make any opening statements along with your questions; 
okay? If not, we'll give you the floor. All right, thank you 
all very much.
    Mark, the blue ribbon report suggested that the Forest 
Service and BLM develop a strategy to replace the aging ex-
military retardant aircraft with a plane developed specifically 
for the purpose of dropping retardant on fires on Federal land. 
The blue ribbon panel report was critical of the repeated 
reliance on ex-military aircraft for conversion into 
airtankers.
    In view of this--and you partly explained this, but I wish 
you'd broaden your explanation--why is the Forest Service 
contemplating issuing a contract for the conversion of P-3 
aircraft to airtankers and investigating the feasibility of 
converting S-3 Viking antisubmarine tracking aircraft into 
airtankers?
    Mr. Rey. The blue ribbon panel made several very useful 
recommendations, many of which we're following and we'll 
probably talk about today. But with all due respect to the 
panel, we believe that both the P-3 and the S-3 are built 
stronger than commercial aircraft and are better able to 
withstand the stress loads--stress and loads encountered in the 
firefighting environment.
    We also believe that an aircraft's hours flown, or the 
operational service life, rather than the year it was 
manufactured is the more appropriate measure for deciding when 
it's time to retire an aircraft. And the three P-3's that we've 
got access to have very low flight hours on them, so they give 
us a very cost-effective way of adding some flexibility to our 
existing fleet.
    One area where we, and I guess the Blue Ribbon Commission, 
don't completely agree is on the utility of former military 
aircraft. We think that they have demonstrated capabilities, 
they're built stronger than most commercial aircraft, and as 
they have been used within their operational service life, they 
have generally performed well. That having been said, there are 
in the market a number of contractors and entrepreneurs who are 
trying to develop a fire service-based aircraft and we're in 
relatively constant communications with them. And to the extent 
that--and at the point that--they are able to achieve 
certification from the FAA and from the tanker board, we'll 
consider adding those aircraft to our fleet as well. The idea 
is to have as much variety and as much flexibility in the fleet 
as we can get. And I can provide to the committee a list of all 
of the known contractors and entrepreneurs who are currently 
working on different aircraft models, some former military, and 
other aircraft that are specifically built for this purpose in 
other countries.
    Senator Craig. Well, we would appreciate the list, but 
don't give out our phone number.
    [Laughter.]
    Senator Craig. Both Mr. Hall and Mr. Hull will testify 
there is still a strong need to designate one agency in charge 
of aviation. Both also continue to insist that the FAA must 
play a greater role in firefighting aviation safety 
certification. Do you agree with their testimony, and if so, 
which agency should be put in charge and how do we get the FAA 
to do more?
    Mr. Rey. I don't think we completely agree with their 
testimony, in the sense that I don't think there's a great deal 
of utility to be--or benefit to be garnered from either of 
those recommendations, and here's why.
    First off, in terms of coordination of aviation assets, 
there are only two agencies involved, the Forest Service and 
the Bureau of Land Management. We operate through a unified 
command system, so I don't think you're going to see much 
change if you decide that one or the other of us is going to 
have to manage all of the aviation assets and all of the 
aviation contracts. In a sense, right now, our operations are 
seamless.
    Moreover, there are a number of States that also manage 
aviation assets and this recommendation wouldn't change that. 
Indeed, to some degree, the fact that we have had to develop a 
unified command system to coordinate our two agencies' efforts 
has helped ensure and encourage the States to participate 
accordingly. So you've already, I think, gotten as much 
unification or coordination as you're going to get, and adding 
one more step isn't probably going to materially improve how 
well we use these assets.
    With regard to the role of the FAA, they're already 
involved. Much of the work that we've done to certificate the 
safety of the large airtankers and now the other aviation 
assets has been closely advised by the FAA. And indeed, to the 
extent that we've retained outside experts, they've been 
experts that have been recommended and approved by the FAA. But 
to the extent that you want the FAA more directly involved, 
that's really an issue for Congress to decide, because under 
the relevant legislation that governs the FAA's activities, 
they're now only responsible for the civil fleet and not for 
public use aircraft. But, again, I think the bottom line is 
we've achieved most of the goals of those recommendations, even 
if we haven't achieved exactly those recommendations as they 
were offered.
    Senator Craig. Thank you. I'll have more questions in the 
next round. Let me turn to Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman. Well, I'm 
sitting here looking at your map with great concern, because 
last year, if you'll recall, at this hearing, you had 
highlighted the Kenai Peninsula as being the one area in the 
State that was vulnerable, and you were right on the money. And 
so I'm looking at this, and perhaps the map isn't as accurate 
as last year, but if you are even close to being right, I am 
greatly concerned and I think my constituents back home are 
going to be even more concerned, because we want to believe 
that there is going to be a relief in sight and we're going to 
be able to enjoy the summer, but that's a large swath and that 
runs through the population centers in the interior down in 
south central, in Anchorage, certainly on the Kenai Peninsula, 
so that's a great concern. So my question is, in terms of 
stationing aviation assets, what can you tell me that we can 
expect in the 2006 fire season in terms of those assets that 
would be on the ground in Alaska?
    Ms. Hatfield. I'd like to start by mentioning again that 
the aviation assets vitally important in Alaska certainly are 
only one piece of the infrastructure that we have in place to 
fight fires in Alaska. We also are going to have three hotshot 
crews, a number of firefighting crews and other emergency crews 
that are available. And so now we're looking at working with 
the State to evaluate what additional resources we might need 
to bring in, in light of this map, which was done as of 
February 8. We can give you a list of particular aircraft that 
are there now and will be available, but, again, as we are 
structuring our strategy, we would be able to move aircraft to 
Alaska as we needed it and as the season erupted. So our whole 
strategy is really built on being able to pre-position and then 
making other resources available as it becomes necessary.
    Senator Murkowski. Well, we were in a position last year of 
not having any Federal retardant tankers in the State, and I 
think that was an issue of basically having to requisition the 
assets. I think it would be helpful and certainly I appreciate 
the opportunity to do the sit-down before the fire season 
begins so that we do have an understanding as to what assets 
will be positioned up north, recognizing again we've got 
earlier fire seasons coming, we have a huge area that we have 
to cover, and we're still a long way from the lower 48 even 
when you're flying there. So it is something that we want to be 
able to resolve before we have a crisis.
    Ms. Hatfield. We would be glad to sit down with you. I 
might mention, in terms of airtankers, we do have two 
airtankers already pre-positioned or planned to be pre-
positioned in Alaska.
    Senator Murkowski. Okay. That is helpful to know. As far as 
the comment you had made, Mr. Rey, about the DC-6's that the 
State had contracted with last year, I understand those are 
still on contract with the State. Under what conditions will 
the State be able to utilize the contracted tankers on 
federally managed lands, on those fires that are on those 
lands?
    Mr. Rey. The issue is not the land, it's who has 
operational control of the fire. If this is an incident where 
the State is running the incident, in the unified command 
structure this is a State-controlled fire. It's their incident 
command team that's running it. If they want to contract for 
use of those tankers, then that's not a Federal issue.
    Where we have the operational responsibility for the fire, 
following the recommendations of the NTSB, we do not believe 
that we can guarantee the operational safety of a DC-6 and so 
we won't have it flown on a Federal fire, because we don't want 
to accept the risk or the liability associated with that. We do 
not know today the operational life of any of the DC aircraft 
that may be flown by any other firefighting agency. As 
contrast, we know with the P-3's, the P-2V's and the military's 
C-130H's when it is no longer safe to fly that aircraft because 
of the flight hours that that specific aircraft has acquired.
    Senator Murkowski. Well, the difficulty, as you know, is 
the Alaskan on the ground doesn't care who's managing the fire, 
just take care of the fire, protect the property, protect the 
life, and the issue of the air quality that I spoke to at the 
beginning is really a major irritant. And it's not just that 
it's smoky out there, it is literally unsafe to be outside. And 
I think this is what perhaps is not getting through, this 
recognition that the fires that we are seeing and the smoke 
levels that we are seeing are not just an inconvenience, but 
that they are stopping us from being able to really move around 
and do what you would consider to be normal business.
    And so there is this--there's this wall, this problem that 
we have in working through this Federal interagency. I do hope 
that we can have some good, long sit-downs, again, before the 
fire season, to work out these things because we talk about 
them ahead of time and then the fires come and nothing seems to 
be any different than it was the previous fire season. So, 
again, we need to do something that's going to be different 
this year.
    Mr. Rey. I think that we should sit down, because the issue 
that you're describing goes beyond the use of large airtankers 
to the overall decisions about when and how to attack fires. 
And, you know, in reality, I don't think the issue is the 
availability of large airtankers, it's the need to walk through 
what our current suppression and attack strategies are and see 
if you agree with them and then see what we can do about it if 
you don't.
    Senator Murkowski. Okay. I will look forward to some of 
those meetings.
    Thank you, Mr. Chairman.
    Senator Craig. Thank you.
    Senator Burns.
    Senator Burns. Secretary Rey, I've just got a couple of 
questions and I guess they have to do with the blue ribbon 
report. It was supposed to be up here the first of March. When 
can we expect that report?
    Mr. Rey. Not the blue ribbon report, which is a report we 
contracted, but the report on the----
    Senator Burns. Yes, I'm sorry. I got the wrong one.
    Mr. Rey. When did you say that would be available?
    Ms. Hatfield. I think it's by the end of the year.
    Mr. Rey. We'll have it probably sometime in the fall.
    Senator Burns. Okay.
    Mr. Rey. This report isn't going to affect this year's 
firefighting.
    Senator Burns. Okay. Now, on the Lockheed P-3's, you bought 
those from the Navy. Have we worked out the liability issue on 
that--on those airplanes?
    Mr. Rey. Yes. We hold the liability for their use.
    Senator Burns. Okay.
    Mr. Rey. And the responsibility to assure their safety. The 
Navy gave them to us, we didn't--no money changed hands.
    Senator Burns. No money changed hands.
    Mr. Rey. No money changed hands.
    Senator Burns. I'll send you out on a--I've got to buy 
another car. I'll send you.
    [Laughter.]
    Senator Burns. But I was just wondering if that report and 
the firefighting and the assessment of--how big does this 
aviation fleet--what do you see? How far do we go on that and 
are we better off owning our own or contracting?
    Mr. Rey. We think we're better off contracting. We think 
the Government gets better service at a more reasonable price.
    Senator Burns. Now, these P-3's. If you've decided that and 
if you have them equipped so they can haul retardant, do you 
have the authorization to sell those P-3's to a private 
contractor?
    Mr. Rey. We don't. You would have to give us that 
authorization through additional legislation, but we do have 
the authority to contract to have a private operator fly it. So 
absent legislation to allow us to convey these three P-3's into 
private ownership----
    Senator Burns. You do have that authority though? You can 
contract those airplanes out.
    Mr. Rey. We can contract with private contractors to fly 
them for us.
    Senator Burns. Okay. That's about the only thing that I was 
concerned about, just how far we're going to go with this with 
the size of our air force for the Forest Service.
    Mr. Rey. We can give you the aviation plan for this year, 
which includes the number of large tankers, helicopters, and 
single-engine tankers.
    Senator Burns. Okay. Helicopters, I realize, are a lot more 
efficient whenever you start--they put the retardant closer to 
the fire and they can spot it a lot quicker and are a lot more 
accurate with it, although they do have a range problem. I'm 
aware of that.
    Mr. Rey. Right. Each aircraft has its advantages and 
disadvantages, that's why we try to have some variety in the 
fleet for different tactical purposes.
    Senator Burns. Well, it's important and I think you know 
that we're coming up on a fire season, and it looks like you've 
got a big season down south. For the first time in many years 
we have read about the range fires in Texas and Oklahoma and so 
their conditions have not really improved a lot down there as 
we move into the summer months. But I would hope that we can be 
ahead of this thing a little bit this year in pre-positioning 
where we think the problems are going to be and to get on those 
fires a lot quicker. I know the worst fire we had in Montana, 
in 1988, could have been stopped. It burned from an old snag 
for 4 or 5 days before it decided to really blow up and go. So 
we need to react a lot faster. Thank you.
    Senator Craig. Senator Burns, thank you. Senator Kyl, 
you're burning. I have a feeling that's probably why you're 
here. Welcome to the committee.
    Senator Kyl. Well, it's one of the reasons. Mr. Chairman, 
thank you. As a former member of this committee, I appreciate 
your courtesy in letting me sit in.
    Senator Craig. Certainly.
    Senator Kyl. It's always good to visit with Mark Rey. Thank 
you for being here and for all of the cooperation that you've 
given to my office and to our State over the years. We 
appreciate it very much.
    It is, in fact, true that we are just mopping up the first 
fire that actually began on February 7. It's the earliest on 
record. It's called the February fire. It burned about 4,200 
acres, $3.3 million in cost, had 539 personnel, 11 type II 
crews, a couple of airtankers, and six helicopters, plus a lot 
of other equipment that helped to fight it.
    Fortunately, it was a combination of mixed--well, it was 
primarily ponderosa pine and some pine pinyon in both the 
Coconino and Tonto Forests. The point is, that area has not had 
moisture in about 4 months, any significant amount. And the 
point is that what it presages is a very long and very 
dangerous season. As you noted, the type of aircraft that can 
be utilized, each have their purposes, but there's no question 
in your mind that the large airtanker is a significant 
contributor in fighting the fires; that's correct, isn't it?
    Mr. Rey. It's the most cost-effective asset for initial 
attack, but we do get good results from other aircraft as well.
    Senator Kyl. Sure. It's just that you'd like to have a good 
combination of all of the different types of aircrafts you have 
and, I guess let me put it this way, if you had the ability to 
get more of the large tankers, given the fact that we're 
already in the fire season and it's only the middle of 
February, in a world in which you could have what you wanted, 
you would have more large tankers, would you not?
    Mr. Rey. Well, we're actually evaluating that in the 
context of putting together our long-term plan. It's not as 
simple as it seems because we're balancing the capabilities of 
each of the three categories of aircraft and also looking at 
what new technologies are being brought online to increase the 
efficiency of the single-engine airtankers and helicopters. 
What I tell you is this, we seem to be sort of heading toward a 
future where we think the optimal number of large airtankers 
would be somewhere between 22 and 24. This year we'll have 
probably close to that many available if we add the military 
aircraft. We have 17 of our own and then eight available from 
the military.
    Senator Kyl. Well, we certainly hope that that's enough. I 
hope that next September, Mr. Chairman, we can come back 
together and say, wow, that was just great, we only had a few 
fires and we were able to get to them quickly and didn't have 
any problems. But judging on the basis of what we've seen so 
far, I'd be very happy if that prediction or anything close to 
it came true.
    Just one other thought. I've written a letter to the 
President and sent you a copy that raises two concerns, but let 
me give you one bit of good news first. In fighting this 
particular fire, once again we find that earlier treatments 
were of significant help. In fact, in the report from the Tonto 
Forest--I'll just read these two sentences--there were over 
5,000 acres of previously treated land right in the vicinity of 
this fire and the writer says, ``the thinned areas and 
previously burned areas were instrumental in stopping advance 
of the February fire in several locations. The areas also 
provided secure anchor points for fire line construction.'' A 
point that you've made many times, and that is that the more we 
can treat the forests, the better we are to prevent the fires 
in the first instance.
    Now, in the President's budget, there's a reduction both in 
the amount of money for treatment and in the amount of money 
for fighting fires, and that's the point of my letter to the 
President. We just can't continue in these kinds of 
circumstances to reduce the amount of money available.
    The second problem is that in the wet Northwest, which is 
not colored on your map, there is an oversupply of money 
compared to the very dry and the dangerous Southwest, which has 
already been noted is a significant part of the map there and 
which includes my State, which has already had fires. What this 
suggests to me is that during the course of this year and early 
on, if possible, there could be a readjustment of money made 
available. We have thousands of acres of NEPA-ready land for 
treatment in the Tonto Forest alone, where this fire burned. I 
met with the local forester ranger there the Saturday before 
this fire was reported a day or two later and he noted that it 
was strictly a matter of money, that they were ready to go and 
we were ready to do some more treatments, but the money is not 
available.
    And so what I would ask you to do is to work with us to 
transfer money from the Northwest to the extent that that's 
possible to do, and to support the plus subs which we will be 
seeking, both for restoration as well as for firefighting in 
this particular year, because clearly in the Southwest we're 
going to need those resources. I suspect you haven't seen my 
letter yet.
    Mr. Rey. No, I've seen it.
    Senator Kyl. Oh, you have? Good. Okay. Great. That's good 
news in and of itself, the speed with which you got the 
communique, and I appreciate that. Any comment on that right 
now?
    Mr. Rey. Let me comment on both the preparedness issue as 
well as the fuels treatment issue. For preparedness, since the 
fire season typically begins in the Southwest, we are already 
starting to move assets and send severity funding to Arizona 
and New Mexico.
    Last week we sent an additional $1.25 million to Arizona 
for severity funding. Presently deployed in the State is 
somewhere in the neighborhood of 560 engines, 21 single-engine 
airtankers, seven large helicopters, and six large airtankers. 
Additionally, by the end of the month, that is to say before 
March 1, we will be pre-positioning 10 type I crews. Those are 
the most experienced and sophisticated crews in our 
firefighting force. So we think with the pre-positioning of 
assets, we will be in good shape. Unfortunately, your hope that 
there will be few fires is one I don't think will be realized, 
but I feel reasonably confident that we will be able to realize 
your second hope and that is that we maintain a level of 
success at initial attack at around the 99 percent level.
    With regard to fuels funding, actually our overall budget, 
the two Departments combined, shows a slight increase in fuels 
funding from fiscal year 2006. The totality of what we devoted 
to implementing the President's Healthy Forest Initiative in 
2005 was $835 million. The totality in 2006 was $907 million. 
The totality of what we've proposed for 2007 is $902 million.
    Now, in our fiscal year 2007 request, we did request a 
boost for the Pacific Northwest, but not in fuels treatment, 
per se, but rather in the forest management program to increase 
commercial timber sales to meet the President's commitment to 
fully implement the Northwest Forest Plan. So much of that work 
would not be fuels-related, although some of it will have an 
ancillary fuels treatment benefit. All of our regions showed 
slight increases in fuels treatment, and obviously as the 
appropriations process continues, we'll be happy to work with 
you to look at adjustments for how that money is distributed 
throughout the country.
    Senator Kyl. Thank you very much, Mr. Secretary.
    Thank you, Mr. Chairman.
    Senator Craig. Thank you for being with us. We know you're 
in a critical situation in your State and in the Southwest and 
we'll monitor it very closely. Thank you. A couple more 
questions for this panel and then I need to get to our next 
panel because of their time constraints.
    Secretary Hatfield, what steps has the BLM and the National 
Interagency Fire Center taken to ensure that companies that 
might be affected are notified well in advance of any of the 
changes that you're making as it relates to the contracting 
that you're looking at, and by that I'm referencing plans to 
move away from the call-as-needed contract to the exclusive-use 
contracts and to a shift to larger, single-engine retardant 
aircraft?
    Ms. Hatfield. Well, the first thing is our strategy, as 
refined, would actually decrease the number of exclusive-use 
contracts and supplement those exclusive-use contracts with 
more call-when-needed contracts.
    Senator Craig. Okay.
    Ms. Hatfield. The exclusive-use contracts would be for the 
larger planes that carry more retardant. In the process of 
doing that refinement of our strategy, we have talked with all 
of the vendors and all the States and explained what we were 
doing and what that would mean in terms of the contracting 
process for them. We're currently in that contracting process, 
so I think in terms of vendor impact, it's difficult for us to 
tell, at this point, that it's going to have very much of an 
impact on them. To the extent that a vendor does not have an 
exclusive-use contract, the vendor will still be in the pool 
that would be available for the call-when-needed contracts. So 
it's really a matter of a difference in terms of the vehicle 
we'll use and in terms of having the resources there we need 
when we need them.
    Senator Craig. Well, I thank you for that. We'll monitor 
that closely with you. Last year, when the Forest Service 
announced a similar shift in its contracting for helicopters, I 
think we received a significant amount of complaints from 
helicopter operators in Oregon and in Idaho and we hope that 
you are advancing this in a way that will give effective pre-
notice and all of that.
    Ms. Hatfield. Right. Well, we have talked to them and they 
are aware of the shift and how we're going to approach this 
fire year.
    Senator Craig. Secretary Rey, one last question of you. Has 
the U.S. Forest Service sought the ongoing participation and 
involvement of existing and potential airtanker operators in 
your strategic planning process?
    Mr. Rey. Yes. That's something we do on an ongoing basis. 
We meet with a variety of current operators, that is, people 
who are flying aircraft under contract for us now as well as 
people who would like to be future operators, that is, people 
who have an aircraft that they're testing and trying to bring 
online for firefighting purposes. One of the things that we're 
going to announce in short order is an aviation day that's 
similar to what the Air Force does when they invite all of the 
various potential and current vendors for military aircraft to 
come and give them some ideas about where they think the future 
of the industry is headed and what sorts of new models they 
have that they want to bring online and what the capabilities 
are. So you'll hear more about that later as we have the first 
Federal Firefighting Aircraft Aviation Day, modeled after the 
Air Force approach.
    Senator Craig. Well, thank you. Thank you both very much 
for being with us this afternoon. We'll obviously stay tuned 
and monitor this very closely as we proceed--I won't say into 
the fire season, it's obvious we're already into it--but as the 
fire season spreads North and West. Thank you both.
    Mr. Rey. Thank you.
    Ms. Hatfield. Thank you.
    Senator Craig. Now let me call James Hall of Hall & 
Associates, Washington, DC, co-chair of the Blue Ribbon Report 
on Aerial Firefighting Safety, along with James Hull, a Texas 
State forester, College Station, Texas, co-chair, again, along 
with Mr. Hall of the Blue Ribbon Report for Aerial Firefighting 
Safety.
    Mr. Hall, we understand you're the one time-sensitive. 
We're going to allow you to proceed first and I'll ask some 
questions of you, then you'll be free to leave and we'll turn 
to Mr. Hull.

        STATEMENT OF JAMES HALL, HALL & ASSOCIATES, LLC

    Mr. Hall. Thank you very much, Senator, and I greatly 
appreciate that courtesy and my wife appreciates it more. As 
chairman of the 2002 blue ribbon panel that reviewed the safety 
of Federal aerial firefighting, I'm pleased to appear before 
you for the second time with my co-chair, Jim Hull. We have 
submitted a document that reflects the views of all the panel 
members and contains more detail on each of the items that I 
will discuss today. I would appreciate it if our long testimony 
and an article submitted by one of our members could be placed 
in the record.
    Senator Craig. All of your material testimonies will become 
a part of the permanent record.
    Mr. Hall. Mr. Chairman, simply put, there has been some 
progress in dealing with the safety and effectiveness of aerial 
firefighting, but much less than we had hoped for. We have 
little direct information comparing the cost and effectiveness 
of the more recent operations that have been characterized by 
fewer large airtankers, the introduction of single-engine 
tankers, and increased numbers of large helicopter tankers, as 
opposed to earlier operations using mostly large airtankers and 
some large helicopters. We are concerned, Mr. Chairman, about 
the acquisition of additional P-3 aircraft for conversion to 
airtankers, given that the most recent fatal large airtanker 
accident involving a P-3 occurred April 20, 2005, killing three 
crew members, and we consider this particularly troubling 
considering that the NTSB has not yet released its report on 
the accident.
    The panel's first finding was that the safety record of 
airtankers was unacceptable. Some aircraft types are no longer 
given contracts and others have had more intense inspections, 
but the safety of the aircraft used in aerial firefighting has 
not been assured. The loss of the P-3 as well as a number of 
helicopters since the report was submitted demonstrates that 
the record remains unacceptable.
    Our second finding noted that the wildland environment has 
changed so that controlling wildland fires could not be 
considered an auxiliary mission to land management. The Forest 
Service has produced a strategic plan, but it has not led to 
the resources necessary for the overhaul of the aerial 
firefighting activity.
    The panel's third finding was that under the present 
arrangement for certification, contracting, and operation, key 
elements of the fleet are unsustainable. There has been some 
work, but no real progress.
    Our fourth finding noted that a variety of philosophies, 
missions, and standards created a mission muddle that seriously 
undermined the effectiveness of wild land firefighting. While 
work on this complex problem is underway, not much headway 
appears to have been made.
    The panel's fifth finding concluded that the culture, 
organizational structure, and management of the agencies 
conducting the aerial firefighting was inappropriate to the 
task. Little seems to have changed and the accidents continue.
    Our sixth finding noted that the FAA had a minimal role in 
certifying the public aircraft use in firefighting. This leaves 
the Forest Service in the untenable position of being both 
operator and regulator of firefighting aircraft. It has neither 
the resources nor the skills to provide the safety oversight of 
this fleet.
    The seventh finding of the panel noted that the contracting 
procedures did not recognize the business and operational 
realities of aerial firefighting and did not produce incentives 
to conduct safe operations. From what we have been able to 
determine, there have been minor improvements in contracting, 
but the fundamental problems remain.
    Our final finding was that training was underfunded and 
inadequately specified. Again, while there have been some 
improvements, we are not aware of any comprehensive plan based 
on validated training needs.
    In conclusion, the Forest Service is composed of many 
dedicated individuals who are experts in land management, but 
have limited aviation expertise. I want to thank the work of 
the individuals in the Forest Service Office of Fire and 
Aviation Management who have spent countless hours working in 
an attempt to address the issues raised in our 2002 report. 
However, one cannot expect such an organization to possess the 
resources nor the expertise of the Federal Aviation 
Administration in aircraft certification and the oversight of 
airworthiness.
    I appreciate the opportunity to present again before the 
committee.
    [The prepared statement of Mr. Hall follows:]
        Prepared Statement of James Hall, Hall & Associates, LLC
review of the progress made on the development of interim and long-term 
   plans for the use of fire retardant aircraft for firefighting on 
                              federal land
    The Blue Ribbon Panel has not been directly involved with the work 
of the USDA-FS since it submitted its report in December of 2002, nor 
has the Panel remained formally constituted since the publication of 
its report. However, members of the Panel did assemble in Washington on 
December 17, 2003 for a progress briefing that was given by the USDA-
FS.
    Information in our presentation is based on published information 
and on a listening watch of progress toward a safe, affordable, and 
effective fleet of retardant/water dropping firefighting and related 
support aircraft. We have also considered a document provided to us by 
the USDA-FS titled `Actions Taken in Response to the Findings of the 
Blue Ribbon Panel,' dated October 2005.
    There has been some progress in both the safety and effectiveness 
of aerial firefighting. The USDA-FS has increased its emphasis on 
initial attack and made changes to the mix of aircraft types. The 
change in the mix of aircraft types is partly because some of the large 
tankers have been disqualified from eligibility for contracts. We have 
been told that the present mix of large tankers, single-engine tankers 
and helicopter tankers seems to be improving the effectiveness of 
firefighting operations. While progress has been made toward 
determining what is necessary to keep aging aircraft airworthy and 
training has been improved, accidents continue to take place. The 
involvement of the FAA in assuring the airworthiness of the air tankers 
remains minimal.
    You have indicated that you want to review the costs and 
effectiveness of utilizing single-engine fire retardant aircraft and 
heavy-lift helicopters as opposed to the Forest Service's reliance on 
multi-engine retardant aircraft in earlier seasons. Most recently, the 
approach has been to use fewer large multi-engine tankers, supplemented 
by single-engine tankers, and an increased number of heavy-lift 
helicopters. In the earlier fire seasons the mix included a larger 
number of large multi-engine aircraft and fewer heavy-lift helicopters. 
Thus, there is not a clear distinction between the traditional and the 
most recent practices. We have been informed that the single-engine 
tankers were effective for initial attack--in some regions. We have 
also been advised that teaming a few single-engine tankers with a large 
airtanker made a positive difference in controlling a number of fires. 
However, we do not have access to the financial information or the 
measured effectiveness of the different operations to assist you with 
the comparisons that you wish to make. We are advised that the USDA-FS 
Pacific South-West region is making progress in analyzing aging 
aircraft problems and introducing new technology into both training and 
firefighting operations.
    We have not been provided with the USDA-FS long-term strategy for 
replacing aging multi-engine aircraft. We understand that the USDA-FS 
is prepared to conduct a three-year study of its aviation assets.
    Unfortunately, we cannot be of great assistance in assessing the 
three recently acquired P-3 aircraft. The earlier model P-3s that have 
been in service were seen as effective and were the newest aircraft 
type in the heavy airtanker fleet. However, there was a fatal P-3 
airtanker accident in April 2005 and the NTSB has not released its 
analysis of that accident. We have no way of ascertaining whether 
aircraft design, performance, or airworthiness were among the factors 
involved in the P-3 accident. It does seem risky to acquire more of the 
same aircraft type involved in this most recent accident before 
learning what factors contributed to that accident. In the following 
parts of this submission, we comment on the low probability that the 
USDA-FS is capable of conducting and controlling a safe aviation 
operation. As the operator of the public aircraft employed in aerial 
fire suppression, the Forest Service appears particularly unprepared to 
assure their airworthiness.
    As our major product was our December 2002 Report, we will 
structure our comments in the context of the Panel's findings and the 
progress, or lack thereof, in addressing the Panel's findings through 
its consultations.
    The Panel's first finding was: The safety record of fixed-wing 
aircraft and helicopters used in wildland fire management is 
unacceptable.
    In our March 26, 2003 report to this subcommittee, we noted that 
contractor personnel flying the large airtankers were subject to lower 
safety standards than were government personnel flying the lead planes 
and smoke jumper aircraft. We also noted that both contractor and 
government aerial firefighting was being conducted at lower safety 
standards than we feel could be justified.
    Sadly, since our last appearance, a four-engine P-3 airtanker 
crashed, killing its crew, in addition to a number of helicopter 
accidents. Each aircraft was attempting to support the wildland fire 
management program. The safety record, after more than three years 
since the release of our report, remains unacceptable.
    Efforts were made by the USDA-FS to assess the structural integrity 
of the aircraft, and some types are no longer eligible for firefighting 
contracts. Some structural assessments have been carried out under 
contract, and some in-flight data has been gathered from a sampling of 
aircraft that were fitted with stress recording devices. We understand 
that the information from the instrumentation was fairly limited, and 
while it may provide useful data, it will be, on its own, far from 
sufficient to call for detailed measures that will assure the 
airworthiness of the airtankers. We are unaware whether the data from 
the instrumented aircraft has been analyzed. In any event, we have no 
indications that the data has been put too much use.
    Some aircraft operated by the Forest Service have been fitted with 
airborne collision avoidance devices.
    The USDA-FS notes in its progress report that ``safety as a core 
value'' was a goal and that they will develop a systems-safety 
approach. We are dismayed to see ``safety as a core value'' still 
listed as a goal when it should have immediately been adopted as a core 
value--even as the paramount core value. In our view, three years after 
our report and with continuing accidents and fatalities in the fleet it 
operates, this is a feeble and telling response to the Forest Service's 
unacceptable safety record.
    The USDA-FS has discontinued the use of the two aircraft types that 
experienced structural failure accidents in 2002. The rationale for 
that decision does not seem to be related to the suitability of those 
aircraft, if appropriately maintained, but due solely to the fact that 
they had accidents. The use of fewer large airtankers has been offset 
by the greater use of SEATS (Single Engine Airtankers) and helicopters, 
without any apparent assessing of the structural effects of more 
intense use of these aircraft. There appears to have been no 
consideration of the mid-sized twin-engine tankers like the S-2s used 
by California and other states.
    Flight load monitoring devices (which gather data on in-flight 
stresses and are quite different from flight data recorders that 
capture altitude, speed, and control positions, etc. for accident 
investigation purposes) have been installed on a small sample of the 
large multi-engine tankers. Flight load data has been gathered, but to 
our knowledge it has not been validated and analyzed. As far as we 
know, none of the USDA-FS aircraft have been fitted with flight data 
recorders to assist in accident investigations. From what we have seen, 
the concern of the Forest Service is with aircraft exceeding certain 
maximum `g' acceleration criteria and not the cumulative effect of low-
level turbulence. Literature suggests the low-level turbulence is as 
great a concern in generating structural fatigue as the exceeding of 
the maximum allowed for `g' levels.
    There appears to be an increasing amount of public opposition to 
the dropping of water mixed with retardants. The mixture is much more 
effective in fire suppression than water alone. However, concerns are 
being expressed about the contamination of lakes and rivers as well as 
risks to both communities and firefighters. It may be that tankers 
will, in the future, be restricted to dropping water. If so, there will 
likely be more emphasis on helicopters and `scooper' aircraft that are 
typically able to scoop up water from lakes and rivers without stopping 
to be loaded.
    We have received information that various elements of the Forest 
Service and some regional offices have been working on some of these 
problems, but in an uncoordinated manner and without central direction.
    The Panel's second finding was: Because the wildland environment 
has changed significantly, controlling wildland fires cannot be 
considered an auxiliary mission to land management. Wildland 
firefighting has grown to a level of importance that warrants the 
attention of national leaders.
    From what we have been able to gather, the Forest Service has 
obtained some climate forecasts that predict a continuation, for at 
least several years, of the dry conditions recently experienced in much 
of the United States. How that information has been employed to justify 
the resources necessary to maintain a safe, efficient fleet of fire 
suppression aircraft is not known. A viewpoint that allows the natural 
regeneration of forests through periodic fires and more attention to 
the presence of fuels in unwanted areas appears to be gaining 
prominence--but we have seen little indication of progress. Our 2002 
comment that ``fire policy to address all of this is not evolving at a 
rate that is essential to address the situation,'' remains valid.
    The USDA-FS has developed a strategic plan to address the 
appropriate mix of aircraft (the composition of which has not been made 
available to us) to meet new environmental requirements, but has 
reported no change other than increasing emphasis on initial attack. 
This seems to us to be a very slow response to the fatal aircraft 
accidents, the loss of homes at the wildland urban interface, and the 
loss of many millions of dollars worth of commercially valuable forest.
    The Panel's third finding was: Under the current system of aircraft 
certification, contracting and operation, key elements of the aerial 
wildland firefighting fleet are unsustainable.
    Considerable sums have been spent on attempting to assure the 
structural integrity of the air tanker fleet. Some aircraft types that 
were part of the fleet in 2002 are no longer used. The original fleet 
of lead planes has been disposed of. To our knowledge, no method has 
been validated that will determine the remaining operational service 
life of the large airtankers and many of the other aircraft used in 
aerial firefighting. There have been some attempts to work more 
effectively with the FAA on the initial certification of the air 
tankers, but we have seen nothing to suggest that there is an effective 
way to ensure the continuing structural integrity of the aircraft. The 
FAA, we understand, has been making efforts to cooperate with the 
Forest Service, but its involvement in assuring the airworthiness of 
the firefighting aircraft has changed little since the time of the Blue 
Ribbon Panel. There is no formal understanding between the FAA and the 
Forest Service. The additional role of the FAA, we are informed, is 
limited to such matters as providing lists of individuals and firms 
that the Forest Service may choose to engage to assist them.
    The Panel's fourth finding was: The variety of missions, 
philosophies, and unclear standards of federal land management agencies 
creates a ``mission muddle'' that seriously compromises the safety and 
effectiveness of wildland fire management.
    We noted in our last appearance that no single body was in charge 
of fire suppression aviation activities, with the result being that 
risks associated with unclear command and control were higher than 
necessary. That situation remains. Some progress has been made toward 
creating improved interagency coordinating bodies, but there is still 
no one agency in charge.
    A recent Quadrennial Fire and Fuel Review Report that was developed 
with the assistance of the Brookings Institution is the first 
substantive attempt to deal with the very difficult question of what 
our Panel characterized as ``mission muddle.'' While the Report created 
a blueprint for change, the mandate for the quadrennial review depends, 
as it must, on interagency cooperation. As the interests of the various 
agencies become affected, the principles outlined in the blueprint will 
become irrelevant unless there is a decision to allow one agency to 
have the final word in setting priorities and allocating resources to 
fire management. Discussing who is to do what while fires rage cannot 
be allowed.
    The Panel's fifth finding noted: The culture, organizational 
structure and management of federal wildland fire management agencies 
are ill-suited to conduct safe and effective aviation operations in the 
current environment.
    At our last appearance we noted that a clearly articulated and 
widely understood safety culture seemed to be either absent or, as in 
the case of the mission, muddled. We noted that the lack of knowledge 
of aircraft condition, together with insufficient training, inspection, 
and maintenance, has resulted in the deplorable safety record for 
airtankers and a less than acceptable record for other aircraft.
    We have seen no evidence of substantive improvement.
    The Panel's sixth finding related to the very limited role of the 
FAA in certifying `public aircraft.'
    We noted that there had been a misunderstanding of the role of the 
FAA. The operators believed that the FAA had a much more significant 
role than it does for the certification and continuing airworthiness of 
public aircraft. The absence of real airworthiness oversight by the FAA 
puts the Forest Service in the untenable position of being both the 
operator and the regulator of its fleet of firefighting aircraft.
    There have been several initiatives by the Forest Service in the 
area of continuing airworthiness, and it has hired some additional 
staff. However, the Forest Service does not have the expertise or 
experience of the FAA, and it is, in our view, most unlikely that it 
ever will be an effective airworthiness authority for a fleet of large, 
old aircraft that are being employed in a role that is much harsher 
than they were designed for. The USDA-FS reports increased cooperation 
with the FAA, but as far as we can tell, the continuing airworthiness 
responsibility remains with the USDA-FS, an organization that is suited 
to--and respected for--plant life management rather than the 
airworthiness of aircraft. In this country we have the world's most 
outstanding airworthiness authority in the FAA. It seems completely 
unreasonable not to provide the resources to the FAA and give it the 
mandate to employ its expertise in ensuring the necessary standards and 
oversight of airtanker airworthiness.
    The Forest Service reports that it is also examining strategies for 
obtaining needed funding to maintain and/or replace old airtankers. 
That a plan for this has not been formulated three years after the 
release of Blue Ribbon Panel Report is so slow as to be baffling.
    The Panel's seventh finding was: Government contracts for airtanker 
and helicopter fire management services do not adequately recognize 
business and operational realities or aircraft limitations. As a 
result, contract provisions contain disincentives to flight safety.
    At our previous appearance we noted the importance of the 
contracting process as the only effective means of enforcing the 
airworthiness and safety requirements of the Forest Service. We also 
noted that the process as it was did not provide incentives for safe 
operation. Even by using its contracts to assure airworthiness, it is 
in our view, very unlikely that the Forest Service will possess the 
aviation knowledge necessary to include the appropriate language in its 
airtanker contracts. Even if it does develop suitable contract 
language, the Forest Service does not have, and cannot be expected to 
develop, an FAA-like capability of providing the necessary 
airworthiness safety oversight. There are still no multi-year contracts 
that will allow contractors to obtain adequate financing.
    We are aware of some minor changes in the contracting process but 
have seen nothing to give us confidence that it has been changed 
sufficiently to take on the functions, which at the time of our Panel 
were presumed by the USDA-FS to have been vested in the FAA.
    The Panel's final finding was: Training is underfunded and 
inadequately specified for helicopters, large airtankers, and other 
fixed-wing operations.
    When we were here in 2003, we noted that the training deficiencies 
remained. We are aware of some minor changes but the situation remains 
much as it was.
    Summary/Proposal: The Forest Service and the other agencies 
involved with wildland fire protection appear to have made little 
progress in three years. Progress toward resolving airtanker safety and 
effectiveness has been unacceptably slow. We say this with full 
knowledge that the Forest Service and other agencies are staffed with 
dedicated individuals who are knowledgeable in their primary fields of 
endeavor. The problem at the time we did our work, and which remains 
today, is largely institutional and is associated more with mandates 
and appropriate expertise than with a lack of will.
    It is time to cut the Gordian knot rather than continue to try to 
unravel it. One approach would be for authority to be put into the 
USDA-FS and other agencies to deal with command and control problems 
that are necessary to ensure that one agency is clearly in charge. 
However, this would still leave the fundamental question of who should 
provide the airworthiness standards and aviation safety oversight. 
Alternately, and probably preferably, the government land management 
agencies could get out of the aircraft operating business and simply 
state their operational requirements. Those requirements, which could 
be handled entirely by competent aviation operators, would leave the 
land management people to their established expertise. This latter 
approach would be contingent on some assurance that the industry would 
be capable of providing the needed service on a safe, effective and 
reliable basis. Whatever approach is taken, our view is that 
significant additional resources will be required; but before 
additional funding is provided, the institutional arrangements need to 
be changed so that aviation operations can be effectively and 
efficiently carried out.
    Finally, we believe there is need for an independent external body 
that can speak freely and advocate necessary change. It could advise 
and work with the Forest Service and the related agencies to speed up 
the resolution of the problems that were identified in our 2002 Report. 
We believe that institutional problems like these (e.g., multiple 
agencies and limited aviation expertise) cannot be solved from within.

    Senator Craig. Mr. Hall, again, thank you very much for 
your commitment to this and obviously your continued critical 
and constructive observation. You suggest that the Government 
land agencies get out of the aircraft operating business. That 
would suggest that either--that some Federal agency, like the 
FAA, take over the job of providing the firefighting aircraft 
or, as you suggest, have the aircraft provided by a competent 
aviation operator. I presume that the FAA would still be 
required to certify the airworthiness of aircraft operated by 
the competent aviation operator, is that not correct?
    Mr. Hall. Mr. Chairman, let me point out that if the FAA--
and maybe clarify--were to operate the aircraft, they would be 
both the operator and the regulator of this aircraft, which 
would produce a conflict of responsibilities, and operation by 
the FAA would not be a good idea. If a competent operator were 
to operate the aircraft, it would depend on whether the 
aircraft was classified as a public aircraft. If they continue 
to be considered public aircraft, little would change unless 
the FAA received additional funding for the airworthiness 
oversight function.
    I might add, Mr. Chairman, since 1993, in my presence on 
the board, I've been talking on this because we have the black 
hole of safety, which is public-use aircraft, that exists, not 
just with the Forest Service and BLM, but with other Federal 
agencies.
    Senator Craig. Well, you're absolutely right. And I guess, 
given the FAA's reluctance to take over responsibility for 
checking airworthiness of government-operated aircraft, other 
than outright legislation that would require this to happen, do 
you have any other suggestions?
    Mr. Hall. Well, obviously, congressional action with 
appropriate funding for the FAA to do the job. My understanding 
from conversations with two administrators, and I'm certainly--
this is my understanding, my conversations with them is they 
would be very reluctant to take on the airworthiness oversight 
of the aircraft unless they were provided additional funding to 
perform the function, and the overnment money would have to be 
spent also to provide airworthiness oversight. And I believe if 
that's done, the FAA is an agency already sitting there with 
that expertise. Personally, I believe from a public policy 
perspective, it would make good sense to provide the FAA money 
to do the airworthiness oversight job that they already do in 
commercial aviation.
    Senator Craig. You've also recommended an independent 
external body to help address the other institutional concerns 
that surfaced in the blue ribbon report which, as you correctly 
point out, have not been resolved. Do you have an organization 
in mind?
    Mr. Hall. Mr. Chairman, let me point out that I had the 
honor for 8 years to serve an independent body that was set up 
by Congress that I personally believe functioned very well and 
we all worked very hard at our responsibilities. I think when 
Congress goes to agencies--operating agencies and asks for 
oversight and recommendations that that is ineffective. I think 
you need an independent look and an independent look that 
reports directly to the oversight committees.
    How that would be structured with the funding of a report 
through OMB, I'm not sure, but I don't believe that you will 
get any independence--the structure of that, obviously, the BRP 
could be reconstituted or a new panel could be created to look 
at some of these things that are put on the table before you 
all, like the effectiveness of initial attack.
    As you know, those numbers--the 99 percent numbers are 
based on fires all over the United States, many of those very 
small fires in the South or in Tennessee, where I'm from, and 
it skews the numbers and presentations for the committee for 
representatives from States where forest fires can actually be 
major, major killers.
    Senator Craig. Well, again, Mr. Hall, thank you very much 
for staying involved in this. We'll continue to work with you 
and your expertise.
    Mr. Hall. Mr. Chairman, anything we can do. And let me 
apologize to my co-chairman and beg his indulgence for not 
being here to listen to his excellent testimony, which I've 
already read. Thank you.
    Senator Craig. Fair enough. Thank you very much. Now, let's 
turn to Jim Hull, Texas State forester, College Station, Texas, 
co-chair of the Blue Ribbon Aerial Firefighting Safety Panel. 
Again, welcome before the committee, Mr. Hull.

STATEMENT OF JAMES B. HULL, PRESIDENT, NATIONAL ASSOCIATION OF 
                        STATE FORESTERS

    Mr. Hull. Thank you, Mr. Chairman. Good to be back. I would 
present testimony somewhat on behalf of the blue ribbon panel, 
but also State foresters. As you know, over two-thirds of the 
forests in the United States are in State and private 
ownership. State foresters have the primary responsibility for 
protecting these acres from wildfire, along with most other 
private lands in America, and a lot of Federal land, for that 
matter. It's essential that we have access to aerial 
firefighting resources if we're going to do our job 
successfully.
    In Texas, we saw significant wildfires in 2005, however, on 
New Year's Day of this year, 2006, 1 day, we saw more wildfire 
destruction, acres burned, than we did in all of 2005 put 
together. I was very appalled that during the week of 
Christmas, between the week of Christmas and New Year's, that 
we saw 345 homes destroyed by wildfire. We saw three 
fatalities. We saw two and a half entire communities destroyed 
by wildfire, hundreds of cars, tractors, barns, livestock. This 
was more wildfire destruction in Texas than I've seen in my 
entire 40-year career combined, and that happened in 1 week. It 
happened largely because of 40, 50 mile-an-hour winds 
restricted our use of aerial firefighting resources. As 
drought, fuels, and population increase across our Nation, it 
becomes more and more critical that we have reliable, high 
quality, sustainable aerial firefighting resources. It's in 
this context that I would offer three specific points.
    First, we must all work together, both Federal and State, 
in developing an interagency long-term strategy for our 
Nation's aerial firefighting resources. We need a strategy that 
will provide a diverse fleet of helicopters and fixed-wing 
aircraft, and we need to do so in a manner that provides 
adequate numbers to allow and, in fact, encourage scheduled 
maintenance and time off for pilots to relieve stress and 
fatigue. Neither of those is the case right now. This strategy 
must be designed to meet the needs of our wildfire suppression 
mission and do so in a safe, airworthy, and sustainable manner 
over the long-term. To this end, you've heard about the fire 
directors and State foresters working together to initiate such 
a strategy to develop its interagency fire program, and I am 
hopeful that by the end of this fiscal year that we will have 
that report available.
    My second point addresses the issue of certifying 
airworthiness. Like all the other findings of the 2003 blue 
ribbon panel report, the National Association of State 
Foresters strongly supports the position that the current 
program of relying on aging former military and surplus 
commercial aircraft is not sustainable.
    Ideally, I think this would mean funding and support for 
aircraft that are designed, engineered, and purpose built 
specifically for delivering fire retardant products. As a State 
forester, I am very much aware of fiscal constraints, but we 
must not arbitrarily rule out the fact that purpose-built 
planes are too expensive. I firmly believe that the free 
enterprise system in this country is capable and poised to 
provide such aircraft if appropriate contractual assurances are 
provided.
    And the third point that I would make is that State 
foresters, along with the blue ribbon panel, believe that the 
missing link in this entire issue is the role of the Federal 
Aviation Administration. As the premier aviation agency, 
whether limited by law or merely a perceived lack of 
responsibility or funding, we feel like that the FAA must 
provide the leadership essential to assuring complete 
airworthiness of these public-use aircraft. The Federal land 
management agencies cannot and should not attempt to duplicate 
the expertise of the FAA when it comes to assuring sustained 
airworthiness of firefighting aircraft. Therefore, I'm urging 
Congress to specifically charge the FAA with the responsibility 
for certifying the airworthiness of public-use aircraft, 
especially airtankers.
    In closing, the National Association of State Foresters 
pledges to work with our Federal partners in any way that we 
possibly can in this entire effort. However, ultimately, it 
seems to me that the ultimate success will depend on Congress 
providing the necessary support and funding to implement 
whatever strategy is developed.
    I very much appreciate the opportunity to work with this 
committee, Congress, and the administration in this entire 
effort and look forward to addressing questions.
    [The prepared statement of Mr. Hull follows:]
Prepared Statement of James B. Hull, President, National Association of 
                            State Foresters
    Mr. Chairman and Members of the Subcommittee: On behalf of the 
National Association of State Foresters (NASF), I am pleased to offer 
the following statement for the hearing record. NASF is a non-profit 
organization that represents the directors of the fifty state forestry 
agencies, eight U.S. territories, and the District of Columbia. State 
Foresters manage and protect state and private forests across the U.S.
    Aerial firefighting resources are essential to the fire protection 
programs of most states and territories represented by NASF. Over two-
thirds of the forests in the United States are in state and private 
ownerships. State Foresters are not only responsible for protecting 
these vast forests, but in most states we are also responsible for 
wildfire protection on all rural lands and, in some states, 
considerable federal land as well.
    Fire protection in America is neither uniquely a western states' 
event nor is it confined predominately to federal lands. More than 
80,000 wildfires occur annually across our nation. Well over 60% of 
those occur in non-western states and over 75% occur on non-federal 
lands. The key point, however, is that no single entity, including 
federal, state, or local government, has the capacity to handle all 
responses to wildfires within their jurisdictional area of 
responsibility. All fire protection programs are thus, by necessity, 
strategically integrated to most effectively and economically serve all 
rural lands of the nation. Aerial firefighting resources are utilized 
in exactly the same way; in other words, we are all in this together. 
Therefore, at this time it is critical that we all work together, 
federal and state, in developing an interagency, long-term strategy for 
our nation's aerial firefighting resources. We need a strategy that 
will provide a diverse fleet of helicopters and fixed-wing aircraft 
that will meet the needs of our wildfire suppression mission, and do so 
in a safe and airworthy and sustainable manner over the long-term.
    In this context, you asked me to address three specific topics this 
afternoon. First, you asked me to address the effectiveness of using 
additional single-engine air tankers (SEATs) and heavy lift (Type 1) 
helicopters to compensate for the loss of approximately 50% of the 
nation's large, multi-engine air tanker fleet. In 2004 and 2005 the 
combination of additional SEATs and Type 1 helicopters along with the 
remaining 17 heavy air tankers allowed federal and state wildland fire 
agencies to achieve an initial attack success rate similar to that of 
previous years. However, I must caution that statement by reminding you 
that in both 2004 and 2005 we experienced relatively moderate fire 
seasons when viewed at a national level. We have yet to test this new 
mix of aviation resources in a long, severe fire season. In other 
words, we don't really know if we can continue to be effective with 
only 16-17 large, multi-engine air tankers, regardless of how many 
SEATs and Type 1 helicopters we have available. The capabilities of 
each of these aircraft types are not entirely interchangeable. Each has 
specific strengths and weaknesses. Therefore, it is essential that we 
develop a long-term strategy that includes a sufficient number and 
variety of safe and effective firefighting aircraft in order to protect 
this nation's forests and communities.
    This leads me to your second question regarding progress on a long-
term strategy. The Fire Directors of the Forest Service, the Bureau of 
Land Management, the US Fish & Wildlife Service, the National Park 
Service, the Bureau of Indian Affairs, and the National Association of 
State Foresters, acting together as the National Fire & Aviation 
Executive Board, have recently chartered a group of agency aviation 
experts to develop this desperately needed, long-term aviation strategy 
for the interagency fire program. This strategy, tentatively scheduled 
for completion by the end of this fiscal year, will continue work the 
Forest Service has already initiated by evaluating all realistic 
alternatives and making recommendations on: (1) the mix or diversity of 
aircraft that are needed; (2) the specific make and model of aircraft 
that meet the identified specifications; (3) the quantity of each 
needed; and (4) the appropriate business model for acquisition and 
management.
    Although this strategy will address all types of aircraft and all 
aviation missions in support of fire suppression, it will focus heavily 
on the large air tanker program. As the Subcommittee is well aware, in 
response to three tragic air tanker crashes (one in 1994 and two in 
2002), the Forest Service and the Bureau of Land Management (BLM) 
chartered a Blue Ribbon Panel to evaluate aviation safety issues. In 
its 2002 report the Panel, which I co-chaired, called into question the 
airworthiness of the fixed-wing heavy air tanker fleet. Subsequently on 
April 23, 2004, the National Transportation Safety Board (NTSB) 
released the report of its investigation and sent its findings and 
recommendations in a letter to the Secretaries of Agriculture and the 
Interior. Because the two Departments did not have the personnel, 
expertise, or funding to comply with the NTSB recommendations, they 
terminated the contracts for the entire fleet of 33 large air tankers 
in May of 2004. Since then, through a program of independent analysis 
and increased inspections, the Forest Service has been able to 
gradually return some of the less ancient former military aircraft to 
service. At the current time, 16 large air tankers are approved and 
available for contract--all of which are aging, former military 
aircraft.
    Lastly, you asked me to comment on the Forest Service's recent 
acquisition of three former U.S. Navy P-3 Orion aircraft for conversion 
as air tankers and my thoughts regarding certification of air 
worthiness. In regard to the P-3 acquisition, even though the long-term 
strategy has not yet been completed, we need to make operational 
decisions in the short-term in order to continue to provide the best 
aerial response to wildfire that we can. In this context, the P-3--
may--serve us well as a bridge aircraft to the next generation of 
large, multi-engine air tankers. However, until the strategy has been 
completed, we won't know whether or not the P-3 aircraft will have a 
role over the long term. This is yet another reason why it is critical 
that we complete the long-term strategy as quickly as possible.
    In regard to certifying airworthiness, it is time, in fact far past 
time, for a better answer. NASF strongly believes that our nation needs 
a safe, modem, and effective aerial firefighting program. As was 
clearly stated in the 2002 Blue Ribbon Panel report on ``Federal Aerial 
Firefighting'', the current program of relying on aging, former 
military and surplus commercial aircraft is not sustainable. Continued 
reliance on older aircraft adapted for firefighting use will merely 
perpetuate the problem over the long term. Ideally, this would mean 
funding and support for aircraft that are designed and engineered 
specifically for delivering fire retardant products. However, we do 
understand that we are currently in a time where fiscal constraint is 
necessary, and it is therefore only prudent to thoroughly examine all 
available sources of aircraft to ensure a cost-effective strategy. But, 
we must not arbitrarily rule out purpose-built aircraft as too 
expensive. We believe that the free enterprise system in this country 
is capable and poised to provide such aircraft if appropriate 
contractual assurances are provided.
    Further, we believe that the missing link in this entire issue is 
the role of the Federal Aviation Administration. Whether limited by law 
or merely a perceived lack of responsibility or funding, the FAA, as 
the world's premier aviation agency, must. provide the leadership 
essential to assuring complete airworthiness of public use aircraft, 
including air tankers, to the same standards that have brought such 
resounding success to the overall airline industry around the world. 
The federal land management agencies cannot, and should not, attempt to 
duplicate the expertise of the FAA when it comes to assuring sustained 
airworthiness of firefighting aircraft that are such a vital part of 
protecting our nation. Therefore, we further encourage Congress to 
specifically charge the FAA with the responsibility for certifying the 
airworthiness of public use aircraft, including air tankers.
    In closing, I want to reiterate that it is absolutely essential 
that we use an interagency process to develop this national aviation 
strategy; one that includes the Forest Service, the Department of the 
Interior Bureaus, and the National Association of State Foresters. To 
accomplish this, NASF pledges our support to work together with the 
federal agencies in developing an interagency long-term strategy for 
our nation's aerial firefighting resources; a strategy that will cost-
effectively provide a diverse fleet of helicopters and fixed-wing 
aircraft that will meet the needs of our wildfire suppression mission 
in a safe and airworthy and sustainable manner over the long term. 
Therefore, we urge the Subcommittee to support sufficient funding for 
the federal wildland fire programs to ensure our collective ability, 
state and federal, to quickly and safely respond to wildfires across 
our country, and to provide for the safety of our communities, our 
firefighters, and the pilots and crew of our aircraft.
    We appreciate the opportunity to offer our testimony and look 
forward to the opportunity to work with Congress and the Administration 
to address this critical issue.

    Senator Craig. Well, Jim, thank you very much for your 
testimony. First of all, I neglected to congratulate you on 
becoming president of the Association of State Foresters.
    Mr. Hull. Thank you.
    Senator Craig. I won't suggest your year will be 
interesting. It sounds like it's already been interesting and 
tremendously challenging.
    Mr. Hull. It has been that.
    Senator Craig. The fires you've had down in your region. 
Like Mr. Hall, you make a strong point for having the FAA take 
responsibility for certification of these aircraft and their 
continued airworthiness. I'm sure you're aware that the FAA has 
resisted taking that duty on with government operated aircraft 
because of the cost and number of aircraft involved. I'm told 
the Forest Service has over 250 aircraft alone that are mostly 
assigned to States and counties.
    I'm wondering if you think it might be reasonable to have 
the FAA only deal with those aircraft involved in the delivery 
of retardant as a way to reduce the burden that might come if 
we were to charge the FAA with that responsibility?
    Mr. Hull. Yes, I think that'd be a great start. The real 
problem that we have right now is with airtankers, and I would 
like to see very much that change specifically in that area.
    Senator Craig. Okay. What about the other recommendations 
in the blue ribbon report? Are you comfortable that sufficient 
progress is being made in addressing these recommendations?
    Mr. Hull. I think, like co-chairman Jim Hall mentioned, the 
bottom line is no. I think that the entire response to me seems 
to be in slow motion to the point that at times I wonder if 
we're going anywhere, to tell you the truth.
    I must say that we have a great group of folks that are 
working on this that are dedicated, committed to what they're 
doing. These are without a doubt the finest folks in the world 
at managing any kind of disaster, and they've proved that over 
and over, whether it's wildfire, hurricanes, tornadoes, it 
makes no difference. They do a great job there. Unfortunately, 
I don't think they have the expertise to deal with aviation as 
it must be dealt with. It's a highly specialized area and so I 
really get the feeling that basically we're in this proverbial 
time warp. It just seems to me like the recommendations that I 
continue to see are the same types of recommendations that 
we've seen virtually ever since the aviation program started 
back in the 1950's. And to me, I can really see great efforts, 
but it all seems to point toward the same cycles of disaster 
that we've experienced time and time again.
    Senator Craig. Okay. In your testimony, you mentioned that 
we cannot arbitrarily rule out propose-built aircraft as 
prohibitively expensive. How do you suggest this option be 
pursued in a cost-effective manner?
    Mr. Hull. I think first you have to define what cost 
effectiveness really is. Fire protection of any kind is not 
cheap, unless you're talking about fire prevention, and fire 
prevention is one of the greatest tools that we have, 
regardless of what form that takes. But fire protection itself 
is very expensive until you factor in the enormous values being 
protected, and those values are increasing every single day. To 
be cost-effective, particularly in the area of firefighting 
assets, I think four or five things have to be there.
    No. 1, it has to be safe, it has to be reliable, it has to 
be sustainable, and it has to be affordable. And I would have 
to think that under the current system, the program is 
affordable, but that's the only ingredient that's there. Safety 
is not there, reliability is not there, and sustainability is 
certainly not there. So I would say the current system is not 
reliable. I guess my suggestion to encourage this to happen 
lies in the free enterprise system to solve the problem. And in 
that I would see these factors taking place.
    No. 2, tell the private sector what needs to be 
accomplished, provide them long-term contracts and incentives 
to allow them to make the investments that are essential to 
develop these kind of aircrafts to solve the problem, insist 
that the FAA provide the certification to make sure the 
airworthiness is there, and then get out of the way and let the 
private sector develop it.
    I've heard one possible scenario that might save some money 
in this process and that would be to take some of the current 
airframes as they are being developed at the factory and at 
that point add tanks to them. I have no idea if that's a 
possibility. It's way beyond my understanding, but the main 
thing in this is I know that the aircraft industry is poised 
and ready to develop aircraft that are purpose built for this 
purpose. We just need to give them the incentives and the 
contractual arrangements that allow them to do it.
    Senator Craig. Well, once again, thank you very much for 
coming up to testify. We appreciate it. Your expertise, your 
experience in these areas, we'll continue to tap it as we 
nudge, push, and pull this program along. It's obviously a very 
critical component in firefighting and you've listed the 
criteria from which we need to review it. And reliability and 
safety are critical, and having obviously the resources 
available at the time necessary becomes awfully important, too. 
Again, thank you very much. We'll keep the committee open for 
how long for questions?
    Mr. Gladics. Ten days.
    Senator Craig. Ten days and the record will remain open for 
the purposes of questions to be addressed to any of the 
witnesses of the panels.
    Thank you all very much. The subcommittee will stand 
adjourned.
    [Whereupon, at 3:50 p.m., the hearing was adjourned.]
                                APPENDIX

                   Responses to Additional Questions

                              ----------                              

  Response of Mike Johanns, Secretary, Department of Agriculture, to 
                      Question From Senator Wyden
    Question 1. In the FY 2005 Interior Appropriation Act (S. 2804) the 
Senate report (S. Rpt. 108-341) directed the Forest Service to develop 
a strategic plan for procuring and managing large air tankers, as 
follows: ``The Committee believes action taken by the Forest Service to 
ground large airtankers at the beginning of the 2004 fire season has 
hampered the ability of land management agencies to mobilize 
efficiently the equipment necessary to protect natural resources and 
communities. The Committee expects the Forest Service to move 
aggressively to address its future needs for aviation assets, and work 
with the Committee to ensure that all necessary components of the 
aviation fleet, including both large airtankers and rotor aircraft, are 
available to maximize firefighting capability. The Committee directs 
the Forest Service to provide it with a strategic plan by March 1, 2005 
for procuring and managing these critical assets, and further directs 
that this plan be developed with alternatives that include input 
provided by private industry.''
    Why hasn't this Plan been completed? How can you propose, for the 
2006 fire season, a combination of large airtankers, helitankers, and 
single engine air tankers to make up for the capability lost by the 
reduction in the number of large airtankers contracted, but you have no 
long term plan on which to base this proposal?
    Answer. A comprehensive, long-term plan is under development by the 
National Interagency Aviation Council (NIAC) with strategic options 
that consider all aspects of the wildland fire mission. The analysis 
considers all aircraft types in current use and assesses options for 
providing effective and cost-efficient aircraft that will meet 
interagency suppression and fuels management goals in the future. The 
planned completion date is December, 2006.
    Each year we adjust the kinds, types and numbers of resources to 
best meet the anticipated needs of the current fire season. In 2006, we 
plan to have sufficient resources to maintain an equivalent level of 
effectiveness as we have achieved on initial attack in previous years.
  Responses of Mike Johanns, Secretary, Department of Agriculture, to 
                     Questions From Senator Salazar
    Question 1a. How has the retirement of certain makes and models of 
aircraft, such as the Beechcraft Baron, affected the availability of 
aircraft to suppress wildfires?
    Answer. We have effectively substituted other aircraft as 
replacements. Consequently, there has been minimal impact on wildfire 
operations.
    Question 1b. Are there less aircraft available? More? The same?
    Answer. Yes, however, there have been no shortages or unfilled 
orders for aviation assets. Overall, our initial attack rate has 
remained stable since 2003.
    Question 2. The USFS acquired 3 Lockheed P-3 Orion aircraft from 
the Navy to use as large retardant aircraft. Will those aircraft be 
converted and available this fire season? Where will those aircraft be 
based?
    Answer. The three Lockheed P-3 Orion aircraft will require 
extensive modifications and are likely not to be available for this 
year's wildfire season. We will conduct a thorough analysis and 
assessment of these resources and, should that confirm the modification 
and maintenance of these aircraft be shown to be cost-effective and 
cost-efficient, would perform the modifications with an anticipated 
aircraft availability 2007.
  Responses of Mike Johanns, Secretary, Department of Agriculture, to 
                      Questions From Senator Burns
    Question 1. In the Fiscal Year 2005 Interior Appropriations bill, 
the Forest Service was directed to develop a report on the future 
composition of the aviation fleet. This report was due on March 1, 
2005. Can you give me any insight to what is holding this report up and 
what the contents of the report are?
    Answer. A comprehensive, long-term plan is under development by the 
National Interagency Aviation Council (NIAC) with strategic options 
that consider all aspects of the wildland fire mission. The analysis 
considers all aircraft types in current use and assesses options to 
providing effective and cost-efficient aircraft that will meet 
interagency suppression and fuels management goals in the future. 
Identifying and coordinating the needs of the various Federal wildfire 
agencies as well as coordination with the States have proven to be the 
greatest challenge in completing this task. The planned completion date 
is December, 2006.
    Question 2. I am also concerned about the future use of military 
surplus aircraft. When do you expect to let these contracts and how 
much it will cost to retrofit the planes?
    Answer. The cost of retrofitting these aircraft is currently being 
evaluated. An accurate estimate of the cost will be available as soon 
as the aircraft can be thoroughly inspected later this month. We 
anticipate awarding a contract by early summer 2006 for the conversion 
of the aircraft. The actual conversion effort will take approximately 
12 months. We anticipate the aircraft being available for the 2007 fire 
season.
    Question 3. Will the government still hold title to these aircraft?
    Answer. Yes, the Forest Service plans to maintain ownership of 
these aircraft and offer operation and maintenance contract to 
commercial operators. Once these contracts are awarded, the aircraft 
will be provided to successful bidders as government furnished 
equipment.
    Question 3a. If so, will the government be liable if there are 
accidents with these aircraft rather than if they were solely owned by 
the operator?
    Answer. If the government retains title to the aircraft, it might 
be sued for negligent maintenance or negligently entrusting it to 
incompetent personnel. If the government does not retain title, such 
allegations cannot be made. As a practical matter, this does not appear 
to be a significant risk. Aircraft accidents involving such aircraft 
generally are caused by either pilot error or mechanical failure, 
including metal fatigue. Regardless of who owns the aircraft, they will 
be piloted by contractor employee; thus, the Government will not be 
liable for pilot error. Similarly, the Government will not be 
conducting maintenance of the aircraft, so the Government should not be 
liable for any mechanical failure. The two most recent accidents were 
caused by breakup of the aircraft in flight caused by metal fatigue 
cracks. Again, even where the Government holds title, the contractors 
will be responsible for inspections to detect such cracks. Accordingly, 
the Government should not be liable for such failures.
    Question 3b. Does it make sense to give the agency the authority to 
sell these aircraft to operators in order to avoid additional 
government liability?
    Answer. Transferring the aircraft to private contractors would not 
avoid Government liability. Any decision whether to retain ownership or 
sell the aircraft to private contractors should be based on other 
factors.
    Question 3c. Would that require a change in law?
    Answer. Yes, the Forest Service, like other agencies, lacks 
authority to sell property directly to private contractors except under 
very limited circumstances. Congress would need to amend the Federal 
Property and Administrative Services Act.
    Question 3d. If we did allow sale would we need to give the Forest 
Service the authority to enter into longer term contracts so that 
operators would know if they bought the aircraft they would get a 
return on their investment since they would be guaranteed that they 
would fly the planes for long enough time to capitalize their 
investment?
    Answer. Currently, Forest Service has authority to enter into 
three-year contracts for air tanker services. For many years, private 
contractors have acquired aircraft and competed for such contracts 
every three years. However, acquisition costs have generally been very 
low. Whether the contractors will need longer term contracts to spread 
the acquisition and conversion costs over a longer term and thus lower 
the price for their contracts will depend on the acquisition costs and 
other financial factors. In the past, the Forest Service has used 
nearly all aircraft available for air tanker services. Thus, the 
contractors might compete every three years for a specific contract, 
but could count on receiving a contract for their aircraft in at least 
some locations. Generally, the contractors could then spread their 
fixed costs over many years. If contractors could not rely on having 
contracts for at least some aircraft for a longer time period, one 
alternative would be to enter into longer term contracts. Congress 
would need to give authority to the Forest Service to enter into such 
longer term contracts.
                                 ______
                                 
   Response of James Hall and James B. Hull to Question From Senator 
                                Salazar
    Question 1. Not long ago, the 9/11 Commission graded the federal 
government on the implementation of its recommendations. If you were to 
do the same type of thing for the Blue Ribbon Commission's Report, what 
grade would you hand out to the agencies and why?
    Answer. We are very pleased that the question asked us to grade the 
federal government and while Mr. Salazar mentioned the agencies, we 
think it is essential to expand the grading to include the full scope 
of those we addressed in our report, that is, the USDA Forest Service, 
the Department of the Interior's Bureau of Land Management, the Federal 
Aviation Administration, Congress and the Administration. Therefore, on 
behalf of the Panel I will provide you with a grade for each, from our 
perspective:

          1) USDA Forest Service and DOI Bureau of Land Management--At 
        best we would give these agencies a grade of ``C-''. They 
        clearly realize the seriousness of the situation and the vital 
        role that aerial fire fighting resources play in the nation's 
        wildfire suppression responsibilities. At least they are 
        attempting to do something, even if it is to sustain a very old 
        and archaic aviation program, but that seems to be their only 
        choice given financial constraints and administrative and 
        political realities.
          These federal agencies appear to either be in slow motion in 
        fully addressing the Blue Ribbon Panel's report, or in the 
        proverbial ``time warp"--trying to re-invent the same old 
        aviation system that has for 50 plus years now proven over and 
        over to be unsustainable.
          As we testified, some minor progress has been made in the 
        area of safety, but accidents continue to happen and the safety 
        record remains unacceptable. For further information on this, 
        please refer to the written testimony that I submitted on 
        behalf of the panel prior to the hearing of 2/15/06.
          We also reported that under the current system of aircraft 
        certification, contracting, and operation, key elements of the 
        aerial fire fighting fleet are unsustainable. Contracting still 
        leaves much to be desired as it sets up a ``value based'' 
        assessment that seems unduly influenced by price. Moreover, it 
        provides little encouragement for scheduled maintenance and 
        time off for pilots to relieve stress and fatigue. In the long 
        term, it provides no incentive for the free enterprise system 
        to work to develop a purpose built plane(s) to replace the 
        failed approach that repeatedly sees the agencies having to 
        rely on old surplus military or commercial aircraft for 
        conversion to air tankers.
          Mission muddle amongst the agencies, which is caused by 
        differences in culture, organizational structure and 
        philosophical matters, and land management objectives, 
        continues today and is not conducive to solving the problem. 
        However, the most dominant problem is that these outstanding 
        land management professionals do not have the technical 
        expertise necessary to oversee and conduct a highly complex and 
        much needed quality aviation program from the ground up. This 
        is not to be confused with their phenomenal expertise in the 
        tactical use of aircraft, as the premier emergency response 
        management organizations in the world.
          Bottom line, the current aerial fire fighting system is not 
        sustainable, and it is not possible for these federal land 
        management agencies to improve their grade of ``C-'' by 
        themselves.
          2) Federal Aviation Administration--We would also have to 
        give the FAA a maximum grade of ``C-'' in response to the Blue 
        Ribbon Panel's report. We spent extensive time describing the 
        FAA's lack of attention to certification of air tankers and 
        argued that a vital safety link is missing when the FAA does 
        not certify airtankers. Whether limited by law or merely a 
        perceived lack of responsibility or funding--we feel that the 
        FAA should have aggressively sought to rectify this deplorable 
        situation instead of rationalizing its way around taking no 
        responsibility for it. We give the FAA a grade of ``C-'' for 
        taking some actions to help the USDA Forest Service get 
        connected with some aviation specialists and because apparently 
        it does not in fact have the statutory authority to deal with 
        public use aircraft.
          3) Congress and The Administration--The Blue Ribbon Panel 
        went into considerable detail with our Finding #2 dealing with 
        the fact that wild land firefighting has grown to a level of 
        importance and magnitude that warrants the attention of 
        national leaders. It is impossible for any of the federal 
        agencies to adequately address this massive situation by 
        themselves, or even collectively, without strong support, 
        commitment and funding from the Administration and Congress. 
        After three years there is no tangible evidence that our 
        national leadership has any inclination to help provide a 
        sustainable aerial fire-fighting program for the nation.
          A safe and efficient aviation program requires at least three 
        basic characteristics: 1) It must be reliable; 2) It must be 
        sustainable; and 3) It must be affordable. The current system 
        that Congress and the Administration seem to favor meets only 
        one of these criteria--it is affordable. In fact, we would 
        express it as a very ``cheap'' way of trying to do business. 
        This is not good enough.
          The puzzling part of this scenario is that we have a private 
        free enterprise aviation system in this country that seems to 
        be poised and ready to develop the type of purpose built 
        aviation aircraft and program that would sustain us for decades 
        to come, but they cannot make the required private investments 
        without some sort of commitment from the federal government 
        that the products will be utilized in such a manner as to make 
        it feasible for the long term.
          We need to get the federal land management agencies out of 
        the aviation business so that they can concentrate on their 
        areas of expertise. This would provide our citizens with the 
        most effective and efficient aerial fire protection available.
          We would suggest that the Congress and Administration jointly 
        form another Blue Ribbon Panel to study and outline how a 
        privately oriented aerial fire fighting (large air tanker) 
        program might be developed, funded and operated to serve the 
        federal land management agencies, not be controlled by them. 
        This matter is urgent, and continuing down the current path is 
        a waste of time and places the American public at greater risk 
        every day, to say nothing of the pilots and others that are 
        charged with flying old converted military and commercial air 
        tankers.
          By the way, we will resist the urge to give Congress and the 
        Administration a grade for their lack of taking action to set 
        in place a workable solution to resolving the aerial fire-
        fighting dilemma.

                                   <all>
</pre></body></html>
